          U.S. DEPARTMENT OF

          ENERGY
          OFFICE OF INSPECTOR GENERAL




       Semiannual Report to Congress
October 1, 2012 – March 31, 2013        DOE/IG-0064
                      Ta ble of Contents

Inspector General’s Message ............................................. 2

Impacts
   Key Accomplishments ................................................................................. 3
   Positive Outcomes ....................................................................................... 3

Reports
   Investigative Outcomes ................................................................................ 7
   Audit Reports ............................................................................................... 8
   Inspection Reports ..................................................................................... 16
   Recovery Act Reports ................................................................................ 18

Results
   Congressional Responses ........................................................................ 23
   Legislative and Regulatory Reviews ......................................................... 23
   Reports Lacking Management Decision ..................................................... 23
   Prior Significant Recommendations Not Implemented ............................... 24
   Audit and Inspection Reports with Recommendations for Better Use of
   Funds ......................................................................................................... 25
   Audit and Inspection Reports with Questioned and/or Unsupported
   Costs .......................................................................................................... 26
   Investigative Activity ................................................................................... 27
   Hotline Activity............................................................................................ 28
   Whistleblower Retaliation Complaints ........................................................ 29
   Peer Reviews ............................................................................................. 30

Summaries
   Investigative Outcomes .............................................................................. 31
   Audit Reports ............................................................................................. 37
   Inspections Reports ............................................................................................ 49
   Recovery Act Reports ............................................................................... 54




                                                                                                                         Page 1
Inspector Genera l’s Messa g e
I am pleased to submit the Semiannual Report to Congress for the period ending
March 31, 2013. This report highlights our efforts to strengthen the integrity, economy
and efficiency of the Department of Energy’s (Department) programs and operations.

During this reporting period, we focused our efforts on Departmental programs and
operations that are critical to the success of the Department’s core mission. Our work
focused on areas such as cyber security, small business innovation research and
technology transfer, stockpile stewardship, American Recovery and Reinvestment Act of
2009 (Recovery Act)-related programs, environmental clean-up and contractor
governance. As a result of limited resources, our efforts in these and other areas are
designed to assist the Department in making thoughtful and consistent programmatic and
management choices that maximize impact.

I appreciate the efforts of my staff for their commitment in providing independent,
accurate, timely and balanced information to Department leadership, Congress and other
key stakeholders.




                                                    Gregory H. Friedman
                                                    Inspector General




                                                                                          Page 2
                                  Impa cts

               Key Accomplishments
    Total Reports Issued:                                                        68
         Audit Reports                                                           39
         Inspection Reports                                                       9
        Recovery Act Reports                                                     20
    Funds Put to Better Use                                        $ 15.0 million
    Questioned Costs                                              $526.5 million
    Unsupported Costs                                             $ 14.9 million
    Dollars Recovered                                              $ 25.2 million
    (Fines, Settlements, and Recoveries)
    Criminal Convictions                                                          11
    Suspensions and Debarments                                                    22
    Civil and Administrative Actions                                              12
    Hotline Complaints Received and Processed                                 2,591




                     Positive Outcomes
Highlights Based on Our Work
During this reporting period, the Department took positive actions as a result of Office of
Inspector General (OIG) work conducted during the current or previous periods.
Consistent with our findings and recommendations:

•   The Department of Justice and the                to pay a total of $18.5 million to
    U.S. Attorney for the Eastern District           resolve allegations of wide-spread
    of Washington have announced a                   timecard fraud at the Hanford Site.
    global settlement agreement with                 The settlement follows an
    CH2M Hill Hanford Group, Inc.                    investigation that confirmed extensive
    (CH2M Hill) and its parent company.              timecard fraud by CH2M Hill
    In summary, CH2M Hill has agreed                 employees from 2005 to 2008.
                                                                                              Page 3
    Company hourly employees involved             “double paying” for research already
    in the cleanup routinely overstated the       funded by other Government and
    number of hours they worked.                  private entities, grant applicants were
    Additionally, we learned that CH2M            required to disclose other grants that
    Hill management condoned the                  overlapped with work proposed to
    practice and submitted inflated claims        ARPA-E. As previously reported,
    to the Department that included the           the investigation determined that the
    fraudulently claimed hours. To date,          professor falsely certified in his grant
    eight of the employees have entered           application that he was not receiving
    guilty pleas, and a number are                additional funding to perform similar
    pending adjudication. The global              work, when, in fact, he had received
    settlement consists of CH2M Hill              the NSF grant. Additionally, the
    paying $16.5 million to resolve its           investigation revealed that the
    civil liability under the False Claims        professor’s private company had
    Act. In addition, CH2M Hill entered           received a separate $1.2 million
    into a Non-Prosecution Agreement              grant from the National Institutes of
    with the U.S. Attorney's Office for the       Health (NIH), for which he had
    Eastern District of Washington to             claimed to perform work that he had
    resolve its criminal liability. Under         not performed while diverting
    the terms of that agreement, CH2M             proceeds from this grant to himself.
    Hill will refund an additional $1.95          The professor pled guilty to wire
    million in wrongfully obtained                fraud, false statements, and money
    profits, dedicate $500,000 to foster          laundering.
    increased accountability at the
    Hanford Site, and pay for independent     •   The Department and National Nuclear
    monitoring to ensure that CH2M Hill           Security Administration (NNSA) issued
    takes adequate corrective actions.            a joint Acquisition Letter to address
                                                  Contractor Domestic Extended
•   A former professor of Material                Personnel Assignments. The
    Science and Engineering at                    Department and NNSA agreed that
    Pennsylvania State University was             Department Manual 321.1-1,
    sentenced to 41 months                        Intergovernmental Personnel Act
    incarceration, a 1-year supervised            Assignments – IPAs would apply to all
    release, and was ordered to pay               IPAs throughout the Department.
    $640,660 in restitution in the U.S.           Further, Lawrence Livermore National
    District Court for the Middle District        Laboratory (Livermore) and NNSA have
    of Pennsylvania. The sentencing               reached an agreement on the questioned
    follows an investigation confirming           costs pertaining to Livermore. The
    that the professor applied for and            contractor will reimburse the
    received a $1.9 million research              Government $1.9 million for
    grant from the Department’s                   unallowable costs associated with
    Advanced Research Projects Agency             change of station assignments and
    – Energy (ARPA-E) after already               intergovernmental personnel
    receiving a grant from the National           assignments.
    Science Foundation (NSF) to
    perform the same work. ARPA-E             •   NNSA and Sandia National Laboratories
    was created to foster research and            (Sandia) resolved questioned costs
    development of energy-related                 related to Home Office Expenses
    technologies. In order to avoid               incurred during FY 2002. After
                                                                                      Page 4
    reviewing the Defense Contract Audit            Department's unclassified cyber security
    Agency’s audit of these expenses, the           program, programs and sites had taken
    Contracting Officer negotiated a final          corrective action to address previously
    settlement and executed the settlement          identified cyber security weaknesses in
    agreement with Sandia.                          the areas of access control, configuration
                                                    and vulnerability management, integrity
•   The California Energy Commission was            of web applications and cyber security
    able to spend over 99 percent of its            awareness training. These actions
    Recovery Act grant before its expiration,       resulted in the closure of 40 prior year
    and successfully completed 15,287               findings at programs and sites
    energy efficiency retrofits of existing         throughout the Department.
    residential and commercial buildings.
                                                •   The Director, Office of Management,
•   The Livermore Site Office performed a           stated that contractor travel costs would
    documented assessment of all security           receive an in-depth review by the Chief
    significant changes made to national            Financial Officer that would also
    security information systems at                 identify best practices. Additionally, the
    Livermore over a 14-month period. As a          Department's Management and
    result of this review, additional changes       Operating contractors would be directed
    were made to Livermore's change                 to assess their foreign travel needs and
    control process to ensure that system           submit action plans to reduce foreign
    changes continue to be properly                 travel and achieve cost savings for
    approved and the process is adequately          taxpayers.
    controlled.
                                                •   The Energy Efficiency and Conservation
•   To enhance consistency in physical and          Block Grant Program (EECBG Program)
    cyber security practices, the Office of         had taken corrective action in response
    Environmental Management (EM)                   to numerous reports issued over the
    required that all qualified Federal and         course of the last six months to improve
    contractor employees, including those           the management of the Program. In
    with and without security clearances,           particular, actions were taken to ensure
    would be processed for the Homeland             grant recipients were on track to meet
    Security Presidential Directive – 12            expenditure goals for their financial
    credential.                                     incentive programs, and were provided
                                                    guidance on their responsibilities for
•   In response to our review, the Office of        long-term monitoring and reporting of
    Energy Efficiency and Renewable                 financial incentive program funding.
    Energy (ERRE) recovered $842,189 in             Further, the EECBG Program had taken
    unallowable costs related to questionable       steps to ensure recipients were
    labor practices at LG Chem Michigan             complying with applicable laws and
    Inc. In addition, the Department                regulations related to Recovery Act job
    required the recipient to implement             reporting, financial and cash
    corrective actions to ensure that the           management, Davis-Bacon wages, and
    issues identified would not occur again.        fixed asset management. Total
                                                    questioned costs of about $1.2 million
•   In response to findings issued in               either have been or are in the process of
    conjunction with our Fiscal Years (FY)          being resolved by the Department.
    2010 and 2011 reports on the

                                                                                             Page 5
•   The Office of Intelligence and Counter       •   The Oak Ridge Office (ORO) and
    Intelligence, a critical partner of the          Portsmouth Paducah Project Office took
    Department and the Intelligence                  corrective actions to ensure that the
    Community, agreed to take corrective             organizational conflicts of interests
    action to address the inadvertent                identified during the inspection were
    exclusion of internal procedures                 mitigated. Specifically, they prepared
    necessary to accomplish its essential            organizational conflicts of interest
    supporting functions in its next iteration       mitigation plans and agreed to develop
    of the Continuity of Operations Planning         an effective process to identify, avoid or
    Implementation Plan. Essential                   mitigate potential organizational
    supporting functions are crucial to              conflicts of interest.
    ensure that the right personnel have
    sufficient resources and guidance to
    accomplish specific tasks during a
    continuity event.




                                                                                                  Page 6
                                       Reports

                 Investig a tive Outcomes
                                                                         Outcome
                              Outcome                                    Summary
                                                                           Page
Actions in Timecard Fraud Investigations                                    31
Sentencing on Research Grant Fraud                                          31
Actions in Per Diem Investigations                                          31
Actions in Defective Body Armor Investigation                               32
Actions in Purchase Card Fraud Investigations                               32
Management and Operating Contractor Repays $4 Million in Fees               32
Weatherization Contractor Enters into Pretrial Diversion Agreement          32
Former Department Contractor Employee Enters into a Pretrial Diversion
                                                                           33
Agreement
Sentencing in Recovery Act Grant Fraud Investigation                       33
Actions in Rhode Island Weatherization Assistance Program Bribery
                                                                           33
Investigation
Guilty Plea Reached in International Investigation                         33
Former Department Contractor Employees Sentenced for Theft of
                                                                           34
Government Property
Former Department Contractor Sentenced and Debarred for Theft of
                                                                           34
Services
Former Subcontractor Employee Sentenced for Theft of Copper Wire           34
Oak Ridge Office Takes Action in Response to Investigative Report to
                                                                           34
Management
Former Bonneville Contractor Employee Debarred                             35
Recovered Funds as a Result of an OIG Investigation                        35
Former Bonneville Employee Debarred                                        35
Former Department Employee’s Spouse Sentenced                              35
Former Department Contractor Employee Debarred                             35
Guilty Plea in Western Area Power Administration Theft                     36
Returned Recovery Act Funds                                                36




                                                                                   Page 7
                                  Audit Reports
                                                                            Un-         Report
Report                              Date     Better Use    Questioned
            Audit Reports                                                supported     Summary
Number                             Issued     of Funds       Costs
                                                                           Costs         Page
          The 2020 Vision One
          System Proposal for
DOE/IG-   Commissioning and        October
 0871     Startup of the Waste     3, 2012
          Treatment and                                                                  37
          Immobilization Plant

          The Department of
          Energy’s
DOE/IG-   Management of           October
                                             $15,000,000
 0872     Foreign Travel          16, 2012                                               37


          Management
          Challenges at the
DOE/IG-   Department of           October
 0874     Energy – Fiscal Year    19, 2012                                               38
          2013

          Management of
          Western Area Power
          Administration’s
DOE/IG-                           October
          Cyber Security
 0873                             22, 2012                                               38
          Program


          Review of the
          Compromise of
          Security Test
DOE/IG-                           October
          Materials at the Y-12
 0875                             26, 2012                                               39
          National Security
          Complex

          The Department of
          Energy’s Small
          Business Innovation
DOE/IG-                           November
          Research and Small                                  $848,616      $525,842
 0876                              6, 2012                                               40
          Business Technology
          Transfer Programs




                                                                                          Page 8
                                                                         Un-       Report
Report                             Date     Better Use   Questioned
            Audit Reports                                             supported   Summary
Number                            Issued     of Funds      Costs
                                                                        Costs       Page
          The Department’s
          Unclassified Cyber
DOE/IG-                          November
          Security Program –                                                        40
 0877                             8, 2012
          2012

          Follow-up Audit of
          the Department’s
DOE/IG-   Cyber Security         December
 0878     Incident Management    11, 2012                                           41
          Program

          Naval Reactors
          Information
DOE/IG-                          December
          Technology System
 0879                            21, 2012                                           41
          Development Efforts

          Management of Los
          Alamos National
DOE/IG-                          February
          Laboratory’s Cyber
 0880                            11, 2013                                           42
          Security Program

          National Nuclear
          Security
DOE/IG-   Administration         February
 0881     Contractor             19, 2013
                                                                                    42
          Governance

          Paducah Gaseous
          Diffusion Plant’s
OAS-M-                            March
          Waste Diversion
 13-01                           15, 2013                                           43
          Efforts

          Cooperative Research
          and Development
          Agreements at
OAS-M-    National Nuclear        March
 13-02    Security               15, 2013                                           43
          Administration
          Laboratories

          The Federal Energy
          Regulatory
          Commission’s
OAS-L-                           November
          Unclassified Cyber
 13-01                            7, 2012                                           44
          Security Program –
          2012



                                                                                     Page 9
                                                                          Un-        Report
Report                              Date     Better Use   Questioned
            Audit Reports                                              supported    Summary
Number                             Issued     of Funds      Costs
                                                                         Costs        Page
          Questioned,
          Unresolved and
          Potentially
OAS-L-    Unallowable Costs       November
 13-02    Incurred by Los         20, 2012                                             44
          Alamos National
          Laboratory During
          Fiscal Year 2010
          The Management of
OAS-L-    the Plateau             December
 13-03    Remediation Contract    21, 2012                                             45

          Department of
          Energy’s
OAS-L-    Management of           January
 13-04    Surplus Nuclear         11, 2013                                             45
          Materials

          The Department of
          Energy’s
OAS-L-    International Offices   January
 13-05    and Foreign             16, 2013                                             46
          Assignments

          The National Nuclear
          Security
          Administration’s
OAS-L-                            January
          Weapons
 13-06                            29, 2013                                             46
          Dismantlement and
          Disposition Program

          Uranium Enrichment
                                                                                    Summary
          Decontamination and
                                                                                       Not
          Decommissioning
OAS-FS-                           October                                           Publically
          Fund’s Fiscal Year
 13-01                            11, 2012                                         Available –
          2011 Financial
                                                                                   Official Use
          Statement Audit
                                                                                      Only
          Management Letter
          on the Uranium
                                                                                    Summary
          Enrichment
                                                                                       Not
          Decontamination and
OAS-FS-                           October                                           Publically
          Decommissioning
 13-02                            11, 2012                                         Available –
          Fund’s Fiscal Year
                                                                                   Official Use
          2011 Financial
                                                                                      Only
          Statement Audit




                                                                                         Page 10
                                                                          Un-        Report
Report                             Date      Better Use   Questioned
            Audit Reports                                              supported    Summary
Number                            Issued      of Funds      Costs
                                                                         Costs        Page
          Federal Energy
          Regulatory
OAS-FS-   Commission’s Fiscal    November
 13-03    Year 2012 Financial     15, 2012                                             47
          Statement Audit

          Department of
          Energy’s Fiscal Year
OAS-FS-                          November
          2012 Consolidated
 13-04                           15, 2012                                              47
          Financial Statements

          Department of
          Energy’s Nuclear
          Waste Fund’s Fiscal
OAS-FS-                          November
          Year 2012 Financial
 13-05                            28, 2012                                             47
          Statement Audit


          Southwestern Federal
          Power System’s
OAS-FS-   Fiscal Year 2011       November
 13-06    Financial Statement    29, 2012                                              48
          Audit

          Management Letter
                                                                                    Summary
          on the Federal
                                                                                       Not
          Energy Regulatory
OAS-FS-                          December                                           Publically
          Commission’s Fiscal
 13-07                            3, 2012                                          Available –
          Year 2012 Financial
                                                                                   Official Use
          Statement Audit
                                                                                      Only
          Management Letter
          on the Audit of the
          Department of
OAS-FS-   Energy’s               January
 13-08    Consolidated           10, 2013                                              48
          Financial Statements
          for Fiscal Year 2012




                                                                                         Page 11
                                                                          Un-        Report
Report                             Date      Better Use   Questioned
            Audit Reports                                              supported    Summary
Number                            Issued      of Funds      Costs
                                                                         Costs        Page
          Information
          Technology
          Management Letter                                                         Summary
          on the Audit of the                                                          Not
OAS-FS-   Department of           January                                           Publically
 13-10    Energy’s                10, 2013                                         Available –
          Consolidated Balance                                                     Official Use
          Sheet for Fiscal Year                                                       Only
          2012

          Department of
          Energy’s Isotope
          Development and
          Production for
OAS-FS-   Research and            January
 13-09    Applications            15, 2013                                             48
          Program’s Fiscal
          Year 2010 Balance
          Sheet Audit

          Management Letter
          on the Department of
          Energy’s Isotope
                                                                                    Summary
          Development and
                                                                                       Not
          Production for
OAS-FS-                           February                                          Publically
          Research and
 13-11                            26, 2013                                         Available –
          Applications
                                                                                   Official Use
          Program’s Fiscal
                                                                                      Only
          Year 2010 Balance
          Sheet Audit

          Performance Audit of
          the Department of                                                         Summary
          Energy’s Improper                                                            Not
OAS-FS-   Payment Reporting in     March                                            Publically
 13-12    the Fiscal Year 2012    14, 2013                                         Available –
          Agency Financial                                                         Official Use
          Report                                                                      Only




                                                                                         Page 12
                                                                           Un-        Report
Report                            Date      Better Use   Questioned
           Audit Reports                                                supported    Summary
Number                           Issued      of Funds      Costs
                                                                          Costs        Page
         Assessment of Audit
         Coverage of Cost
         Allowability for Los
                                                                                     Summary
         Alamos National
                                                                                        Not
         Laboratory during
OAS-V-                          November                                             Publically
         Fiscal Year 2010                                $459,342,956
 13-01                          19, 2012                                            Available –
         under Department of
                                                                                    Official Use
         Energy Contract No.
                                                                                       Only
         DE-AC52-
         06NA25396

         Assessment of Audit
         Coverage of Cost
         Allowability for
         Bechtel BWXT
         Idaho, LLC under                                                            Summary
         Department of                                                                  Not
OAS-V-   Energy Contract No.    November                                             Publically
                                                                $741
 13-02   DE-AC07-                20, 2012                                           Available –
         99ID13727 during                                                           Official Use
         Fiscal Year 2011 and                                                          Only
         the three months
         ended December 31,
         2011

         Assessment of Audit
         Coverage of Cost
         Allowability for
         Lawrence Livermore
                                                                                     Summary
         National Laboratory
                                                                                        Not
         for the period
OAS-V-                          December                                             Publically
         October 1, 2008 thru
 13-03                          21, 2012                                            Available –
         September 30, 2010
                                                                                    Official Use
         under Department of
                                                                                       Only
         Energy Contract No.
         DE-AC52-
         07NA27344




                                                                                          Page 13
                                                                         Un-        Report
Report                           Date      Better Use   Questioned
           Audit Reports                                              supported    Summary
Number                          Issued      of Funds      Costs
                                                                        Costs        Page
         Assessment of Audit
         Coverage of Cost
         Allowability for
         Battelle Energy                                                           Summary
         Alliance, LLC under                                                          Not
OAS-V-   Department of          January                                            Publically
 13-04   Energy Contract No.    29, 2013                                          Available –
         DE-AC07-                                                                 Official Use
         05ID14517 during                                                            Only
         Fiscal
         Year 2011

         Assessment of Audit
         Coverage of Cost
         Allowability for
         National Security
                                                                                   Summary
         Technologies, LLC
                                                                                      Not
         for the period
OAS-V-                          January                                            Publically
         October 1, 2007 thru                                $8,945
 13-05                          29, 2013                                          Available –
         September 30, 2011
                                                                                  Official Use
         under Department of
                                                                                     Only
         Energy Contract No.
         DE-AC52-
         06NA25946

         Assessment of Audit
         Coverage of Cost
         Allowability for
         Fermi National
                                                                                   Summary
         Accelerator
                                                                                      Not
         Laboratory during
OAS-V-                          February                                           Publically
         Fiscal Years 2008
 13-06                          12, 2013                                          Available –
         through 2011 under
                                                                                  Official Use
         Department of
                                                                                     Only
         Energy Contract No.
         DE-AC02-
         07CH11359




                                                                                        Page 14
                                                                         Un-        Report
Report                          Date      Better Use   Questioned
           Audit Reports                                              supported    Summary
Number                         Issued      of Funds      Costs
                                                                        Costs        Page
         Assessment of Audit
         Coverage of Cost
         Allowability Sandia
                                                                                   Summary
         Corporation during
                                                                                      Not
         Fiscal Years 2009
OAS-V-                         February                                            Publically
         and 2010 under                                 $12,760,295
 13-07                         20, 2013                                           Available –
         Department of
                                                                                  Official Use
         Energy Contract No.
                                                                                     Only
         DE-AC04-
         94AL85000

         Assessment of Audit
         Coverage of Cost
         Allowability for
         Brookhaven National                                                       Summary
         Laboratory during                                                            Not
OAS-V-   Fiscal Years 2008      March                                              Publically
                                                        $23,086,303
 13-08   through 2011 under    15, 2013                                           Available –
         Department of                                                            Official Use
         Energy Contract No.                                                         Only
         DE-AC02-
         98CH10886




                                                                                        Page 15
                                      Inspection
                                       Reports
                                                                          Un-       Report
Report        Inspection           Date      Better Use   Questioned
                                                                       supported   Summary
Number          Reports           Issued      of Funds      Costs
                                                                         Costs       Page
          Allegations of
          Organizational          November
 INS-O-
          Conflicts of Interest    5, 2012
  13-01                                                                              49
          at Portsmouth and
          Oak Ridge
          Tactical Response
 INS-O-   Force Pursuit           November
                                                                                     49
  13-02   Operations at Idaho     30, 2012
          National Laboratory
          Radiological Waste
 INS-O-   Operations in Area G     March
                                                                                     50
  13-03   at Los Alamos           20, 2013
          National Laboratory
          Alleged Conflict of
          Interest at Sandia
 INS-L-                           November
          National                                                                   50
  13-01                            5, 2012
          Laboratories, New
          Mexico
          Alleged Improper use
          of Patented
 INS-L-                           November
          Technology at the
  13-02                            5, 2012                                           51
          Idaho National
          Laboratory
          Continuity of
 INS-L-   Operations Planning     November
  13-03   and Intelligence        16, 2012                                           51
          Readiness
          Allegations
          Concerning
 INS-L-   Contracting for          March
  13-04   Services of Former      15, 2013                                           51
          Employees at Sandia
          National Laboratories
          Alleged Wasteful
          Spending Regarding
INS-SR-   International Travel    January
 13-01    by the Department of    31, 2013                                           52
          Energy’s Deputy
          Secretary




                                                                                      Page 16
                                                                         Un-       Report
Report        Inspection          Date      Better Use   Questioned
                                                                      supported   Summary
Number          Reports          Issued      of Funds      Costs
                                                                        Costs       Page
          Approval of
          Contractor Executive
DOE/IG-                           March
          Salaries by                                                               52
 0882                            22, 2013
          Department of
          Energy Personnel




                                                                                     Page 17
                                Recovery Act
                                  Reports
                                                                          Un-         Report
Report     Recovery Act          Date      Better Use   Questioned
                                                                       supported     Summary
Number       Reports            Issued      of Funds      Costs
                                                                         Costs         Page
         Implementation of
         the Department of
OAS-
         Energy’s               November
RA-L-
         Concentrating Solar     1, 2012                                               54
13-01
         Power Program

         The Department of
         Energy’s $700
         Million Smart Grid                              $12,300,000
         Demonstration
 OAS-
         Program Funded         January
RA-13-
         through the American   17, 2013
  08                                                                                   54
         Recovery and
         Reinvestment Act of
         2009

         The Department of
         Energy’s
         Management of the                                 $842,189
 OAS-
         Award of a $150        February
RA-13-
         Million Recovery Act    8, 2013
  10                                                                                   55
         Grant to LG Chem
         Michigan Inc.

         The Department of
OAS-
         Energy’s Solid-State   February
RA-L-
         Lighting Program       28, 2013                                               55
13-03
         The Department of
         Energy’s Industrial
         Carbon Capture and                               $3,886,000   $14,373,000
 OAS-    Storage Program
                                 March
RA-13-   Funded by the
                                21, 2013
  15     American Recovery                                                             56
         and Reinvestment
         Act




                                                                                        Page 18
                                                                        Un-       Report
Report     Recovery Act         Date      Better Use   Questioned
                                                                     supported   Summary
Number       Reports           Issued      of Funds      Costs
                                                                       Costs       Page



         Energy Efficiency and Conservation Block Grant Program Reports

         California Energy
         Commission −
         Energy Efficiency                                $678,000
         and Conservation
 OAS-
         Block Grant Program   October
RA-13-
         Funds Provided by     9, 2012                                             57
  01
         the American
         Recovery and
         Reinvestment Act of
         2009
         County of Los
         Angeles – Energy
         Efficiency and
 OAS-    Conservation Block
                               October
RA-13-   Grant Program Funds
                               9, 2012                                             57
  02     Provided by the
         American Recovery
         and Reinvestment
         Act of 2009
         The Department of
         Energy’s American
         Recovery and                                     $560,000
         Reinvestment Act
 OAS-    Energy Efficiency
                               November
RA-13-   and Conservation
                                8, 2012
  04     Block Grant Program                                                       57
         – Efficiency Maine
         Trust


         The Department’s
         Implementation of
         Financial Incentive
OAS-
         Programs under the    December
RA-L-
         Energy Efficiency      3, 2012
13-02                                                                              58
         and Conservation
         Block Grant Program




                                                                                    Page 19
                                                                         Un-       Report
Report     Recovery Act           Date      Better Use   Questioned
                                                                      supported   Summary
Number       Reports             Issued      of Funds      Costs
                                                                        Costs       Page
         City of Los Angeles -
         Energy Efficiency
         and Conservation
         Block Grant Program
 OAS-
         Funds Provided by       February
RA-13-
         the American            19, 2013
  12                                                                                58
         Recovery and
         Reinvestment Act of
         2009

         North Carolina State
         Energy Office -
         Energy Efficiency
         and Conservation
 OAS-
         Block Grant Program     February
RA-13-
         Funds Provided by       19, 2013
  09                                                                                59
         the American
         Recovery and
         Reinvestment Act of
         2009
         Texas State Energy
         Conservation Office -
         Energy Efficiency
         and Conservation
 OAS-    Block Grant Program
                                 February
RA-13-   Funds Provided by
                                 21, 2013
  13     the American                                                               59
         Recovery and
         Reinvestment Act of
         2009

         Connecticut
         Department of
         Energy and
         Environmental
         Protection - Energy
 OAS-    Efficiency and
                                 February
RA-13-   Conservation Block
                                 28, 2013
  14     Grant Program Funds                                                        59
         Provided by the
         American Recovery
         and Reinvestment
         Act of 2009




                                                                                     Page 20
                                                                           Un-       Report
Report     Recovery Act           Date      Better Use   Questioned
                                                                        supported   Summary
Number       Reports             Issued      of Funds      Costs
                                                                          Costs       Page
         The Department of
         Energy’s American
         Recovery and                                      $2,008,000
         Reinvestment Act
 OAS-    Energy Efficiency
                                  March
RA-13-   and Conservation
                                 28, 2013
  16     Block Grant Program                                                          60
         – State of Colorado
         and County of
         Boulder, Colorado




                       Weatherization Assistance Program Reports

         Community Action
         Partnership of Orange
         County –                                           $214,900
         Weatherization
 OAS-    Assistance Program
                                 October
RA-13-   Funds Provided by
                                 17, 2012                                             61
  03     the American
         Recovery and
         Reinvestment Act of
         2009

         Prince George’s
         County Department
         of Housing and
         Community
         Development –
         Weatherization
 OAS-
         Assistance Program      January
RA-13-
         Funds Provided by       17, 2013
  05                                                                                  61
         the American
         Recovery and
         Reinvestment Act of
         2009




                                                                                       Page 21
                                                                          Un-       Report
Report      Recovery Act         Date      Better Use   Questioned
                                                                       supported   Summary
Number        Reports           Issued      of Funds      Costs
                                                                         Costs       Page
         Montgomery County
         Department of
         Housing and
         Community Affairs –
         Weatherization
 OAS-    Assistance Program
                                January
RA-13-   Funds Provided by
                                17, 2013
  06     the American                                                                62
         Recovery and
         Reinvestment Act of
         2009


         The Department of
         Energy’s
         Weatherization                                   $9,562,150
         Assistance Program
 OAS-
         Funded under the       January
RA-13-
         American Recovery      17, 2013
  07                                                                                 62
         and Reinvestment
         Act for the State of
         Maryland

         Fresno County
         Economic
         Opportunities                                       $3,800
         Commission –
         Weatherization
 OAS-    Assistance Program
                                February
RA-13-   Funds Provided by
                                19, 2013
  11     the American                                                                63
         Recovery and
         Reinvestment Act of
         2009


         Community Action
         Partnership of San
         Bernardino County –                               $393,300
         Weatherization
 OAS-    Assistance Program
                                 March
RA-13-   Funds Provided by
                                28, 2013
  17     the American                                                                63
         Recovery and
         Reinvestment Act of
         2009




                                                                                      Page 22
                                      Results
Congressional Responses

During this reporting period, the Inspector General testified at two hearings, noted below:

1. Strategic Forces Subcommittee, House Armed Services Committee, on February 28, 2013.
   The hearing was entitled, “Nuclear Security: Actions, Accountability, and Reform."

2. Subcommittee on Oversight, House Committee on Science, Space, and Technology, on
   March 14, 2013. The hearing was entitled, "Top Challenges for Science Agencies: Reports
   from the Inspectors General - Part 2."



Legislative and Regulatory Reviews
The Inspector General Act of 1978, as amended, requires the OIG to review and comment upon
legislation and regulations relating to Department programs and to make recommendations
concerning the impact of such legislation or regulations on Departmental economy and
efficiency. During this reporting period, the Office of Counsel reviewed 23 pieces of proposed
legislation/regulations.



Reports Lacking Management Decision
The Department has a system in place to track audit and inspection reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions indicated by
audit agencies and agreed to by management are addressed as efficiently and expeditiously as
possible. Listed below are the audit reports over 6 months old that were issued before the
beginning of the reporting period and for which no management decision had been made by the
end of the reporting period. The reason a management decision had not been made and the
estimated date for achieving management decision is described below.


Use of Noncompetitive Procurements to Obtain Services at the Savannah River Site
(IG-0862; April 10, 2012)

The Department is working with the OIG to identify what actions are needed to address the
OIG's concerns regarding related-party transactions between the contractor and its corporate
parents. The anticipated completion date for the management decision is June 30, 2013.



                                                                                                 Page 23
The Department of Energy's Clean Cities Alternative Fuel Vehicle Grant Program Funded
under the American Recovery and Reinvestment Act (OAS-RA-12-12: May 22, 2012 )

The finalization of the management decision on this report is awaiting review and concurrence
by the necessary Department elements. This should occur by May 30, 2013.

Efforts by the Department of Energy to Ensure Energy-Efficient Management of its Data
Centers (IG-0865, May 25, 2012 )

Management actions to implement the OIG’s recommendations were, in part, based on the
issuance of an Energy Savings Performance Contract task that has since been put on hold until
further notice by the Office of Management and Budget. Upon learning their decision as to
whether the Office of the Chief Information Officer and the Office of Management can proceed
with the task award, a revised management decision will be developed. Anticipated completion
date of a final management decision is June 30, 2013.


Prior Significant Recommendations Not Implemented
As of March 31, 2013, closure actions on recommendations in 36 OIG reports had not been fully
implemented within 12 months from the date of report issuance. The OIG is committed to
working with management to expeditiously address the management decision and corrective
action process, recognizing that certain initiatives will require long-term, sustained, and
concerted efforts. Further, the Department has closed 139 recommendations in the past 6
months. Information on the status of any report recommendation can be obtained through the
OIG’s Office of Audits and Inspections.




                                                                                                Page 24
              Audit and Inspection Reports with
           Recommendations for Better Use of Funds
                                October 1, 2012 – March 31, 2013
 The following table shows the total number of audit and inspection reports and the total dollar value of
                  the recommendations that funds be put to better use by management:

                                                    Total Number             Better Use of Funds

 A. Reports issued before the reporting
    period that include
    recommendations for better use of                      13*                   $524,903,514
    funds for which decisions on
    dollars have not been made:
 B. Reports issued during the reporting
    period that include
    recommendations for better use of
                                                            1                     $15,000,000
    funds (regardless of whether a
    decision on dollars has been
    made):
     Subtotals (A + B)                                     14                    $539,903,514
 C. Reports that include
    recommendations for better use of
    funds for which a decision on                          1**                     $1,108,077
    dollars was made during the
    reporting period:
    (i) Agreed to by management:                                                   $1,108,077
    (ii) Not agreed by management:                                                      $0
 D. Reports that include
    recommendations for better use of
    funds for which decisions on                           13*                   $538,795,437
    dollars have not been made at the
    end of the reporting period:
  Better Use of Funds: Funds that could be used more efficiently by implementing recommended
  actions.
  Management decision: Management’s evaluation of the finding and recommendations included in the
  audit report and the issuance of a final decision by management concerning its response.
*This figure includes reports for which the Department may have made some decisions on dollars but not all
issues within the report have been resolved.
**This figure does not include reports for which the Department has made decisions on some aspects of the
report but not all.




                                                                                                            Page 25
                     Audit and Inspection Reports
               with Questioned and/or Unsupported Costs
                                      October 1, 2012 – March 31, 2013
    The following table shows the total number of audit and inspection reports and the total dollar value of
                                     questioned and/or unsupported costs.

                                            Total           Questioned            Unsupported
                                                                                                          Total Costs
                                           Number             Costs                  Costs
A. Reports issued before the
   reporting period that
   include questioned and/or
                                              22*          $640,057,371              $788,658            $640,846,029
   unsupported costs for
   which decisions on dollars
   have not been made:
B. Reports issued during the
   reporting period that
   include questioned or
   unsupported costs                          16           $526,496,195            $14,898,842           $541,395,037
   (regardless of whether a
   decision on dollars has
   been made):
   Subtotals (A + B)                          38          $1,166,553,566           $15,687,500          $1,182,241,066
C. Reports that include
   questioned and/or
   unsupported costs for
                                              6**           $29,052,230                  $0               $29,052,230
   which a decision on dollars
   was made during the
   reporting period:*
   (i) Value of disallowed
                                                            $12,742,297                  $0               $12,742,297
   costs:
   (ii) Value of costs not
                                                            $16,309,933                  $0               $16,309,933
   disallowed:
D. Reports that include
   questioned and/or
   unsupported costs for
   which decisions on dollars                 32*         $1,137,501,336           $15,687,500          $1,153,188,836
   have not been made at the
   end of the reporting
   period:*
Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) or an alleged violation of law, regulation, contract,
etc.
Unsupported costs: A cost that is not supported by adequate documentation.
Management decision: Management’s evaluation of the finding and recommendations included in the audit and
inspection report and the issuance of a final decision by management concerning its response.
  *This figure includes reports for which the Department may have made some decisions on dollars but not all issues
  within the report have been resolved.
  **This figure does not include reports for which the Department has made decisions on some aspects of the report but
  not all.



                                                                                                                         Page 26
                             Investigative Activity
                             October 1, 2012 – March 31, 2013

 Cases open as of October 1, 2012                                                        244

 Cases opened during period                                                              61

 Cases closed during period                                                              55

 Multi-Agency Task Force Cases Opened                                                    27

 Qui Tam* investigations opened                                                           7

     Total Open Qui Tam investigations as of March 31, 2013                              18

 Cases currently open as of March 31, 2013                                               250

 IMPACT OF INVESTIGATIONS:

     Administrative discipline and other management actions                              10
     Recommendations to management for positive change and
                                                                                         34
     other actions
     Suspensions/Debarments                                                              22

     Accepted for prosecution**                                                          13

     Indictments                                                                         10

     Criminal convictions                                                                11

     Pre-trial diversions                                                                 4

     Civil actions                                                                        2
 TOTAL DOLLAR IMPACT***
                                                                                   $25,158,886
 (Fines, settlements, recoveries)
*For more information on Qui Tams, please select this link:
http://www.justice.gov/usao/eousa/foia_reading_room/usam/title9/crm00932.htm
**Some of the investigations accepted during the 6-month period were referred for prosecution during a
previous reporting period.
***Some of the money collected was the result of task force investigations involving multiple agencies.




                                                                                                          Page 27
                                 Hotline Activity
                            October 1, 2012 – March 31, 2013

Total Hotline calls, emails, letters, and other complaints (contacts)
                                                                               2,591
    • Hotline contacts resolved immediately/redirected/no further action       2,427

    • Hotline contacts predicated for evaluation                               164

Total Hotline predications processed this reporting period                     203*

    • Hotline predications transferred to OIG Program Office                    34
    • Hotline predications referred to Department management or other entity
                                                                                96
      for information/action
    • Hotline predications closed based upon preliminary OIG activity and
                                                                                56
      review
    • Hotline predications awaiting referral (as of 3/31/13)                    0

    • Hotline predications open at the end of the reporting period              17




                                                                                     Page 28
              Whistleblower Retaliation Complaints
                           October 1, 2012 – March 31, 2013

Recovery Act Whistleblower Retaliation Complaints received                       1

Accepted Complaints carried over from prior period(s)                            2

Disposition of Whistleblower Retaliation Complaints:

   • Reports issued                                                              2

   • Complaints Dismissed:

       -   Elected another forum                                                 1

       -   Complaints withdrawn                                                  0
       - Upon receipt of Complaint, determined not related to covered funds at
                                                                                 0
         the outset
       - After investigation, determined not related to covered funds after
                                                                                 0
         investigation
   •   Recovery Act Complaints that received extensions                          2




                                                                                     Page 29
                                       Peer Reviews
                                October 1, 2012 – March 31, 2013

                    Results of Reviews Conducted by DOE/OIG:
                           Office of Audits and Inspections
    Date of
  Recent Peer         Reviewed OIG                    Outstanding Recommendations
  Reviews (s)
                            None


                    Results of Reviews Conducted by DOE/OIG:
                               Office of Investigations
    Date of
  Recent Peer          Reviewed OIG                   Outstanding Recommendations
  Reviews (s)
                             None
There are no outstanding recommendations from any previous peer reviews.


                   Results of Reviews Conducted by Other OIGs:
                           Office of Audits and Inspections
  Date of
                                      Requirements
  Recent
                 Reviewing OIG         For Review           Outstanding Recommendations/Link
   Peer
                                       Frequency
 Review(s)
                 U.S. Treasury
  10/2012          Inspector          At least once                        None
                General for Tax       every 3 years
                Administration

                   Results of Reviews Conducted by Other OIGs:
                               Office of Investigations
  Date of
                                      Requirements
  Recent
                 Reviewing OIG         For Review           Outstanding Recommendations/Link
   Peer
                                       Frequency
 Review(s)
                      None




                                                                                           Page 30
                                S umma ries

                 Investig a tive Outcomes
Actions in Timecard Fraud Investigations
The U.S. Department of Justice and the U.S. Attorney’s Office for the Eastern District of
Washington reached a global settlement agreement with CH2M Hill Hanford Group, Inc.
(CH2M Hill) and its parent company. The agreement required that CH2M Hill pay a total of
$18.5 million, of which $16.5 million was to resolve its civil liability under the False Claims Act.
Additionally, CH2M Hill entered into a Non-Prosecution Agreement with the U.S. Attorney’s
Office to resolve its criminal liability, requiring that CH2M Hill will refund $1.95 million in
wrongfully obtained profits, dedicate $500,000 to foster increased accountability at the Hanford
Site, and pay for independent monitoring to ensure that CH2M Hill takes adequate corrective
actions. The investigation determined that CH2M Hill employees routinely falsified their
timecards and that CH2M Hill management not only condoned the practice, but submitted
inflated claims to the Department that included the fraudulently claimed hours. This is an
ongoing investigation.


Sentencing on Research Grant Fraud
A former Pennsylvania State University professor was sentenced in U.S. District Court for the
Middle District of Pennsylvania to serve 41 months incarceration, a 1-year supervised release,
and was ordered to pay $640,660 in restitution. The professor pled guilty to wire fraud, false
statements, money laundering, and defrauding the NIH on a separate $1.2 million research grant.
As previously reported, the investigation determined the professor applied for and received a
$1.9 million research grant from the Department’s ARPA-E after already receiving a grant from
the NSF to perform the same work.


Actions in Per Diem Investigations
The OIG has continued to conduct a number of investigations involving improper per diem
payments at the Savannah River Site. Many of these payments involved Recovery Act funds.
During this reporting period, judicial and/or administrative action was taken against seven
individuals and one company. These actions included plea agreements, pre-trial diversion
agreements, sentencings, a civil settlement agreement, debarments, and one administrative
recovery of funds. To date, the per diem investigations have resulted in over $2.3 million in
recoveries.



                                                                                                   Page 31
Actions in Defective Body Armor Investigation
As previously reported, a joint investigation was conducted into allegations that a body armor
manufacturer knowingly participated in the manufacturing and sale of defective body armor.
The manufacturer sold this defective body armor to the Department, as well as to other Federal,
State, local, and Tribal law enforcement agencies. Several individual companies that provided
component parts of the armor, or the armor itself, previously agreed to pay a total of $60 million
to resolve allegations that they violated the False Claims Act. During this reporting period, First
Choice Armor and Equipment, Inc. and two of its former principals entered into civil settlement
agreements to pay $250,000 to settle False Claims Act allegations.


Actions in Purchase Card Fraud Investigations
The OIG conducted a number of investigations involving the improper use of Government
purchase cards by contractor employees at the Department’s Hanford Site. As previously
reported, several former contractor employees were convicted, sentenced, and ordered to pay
over $1 million in restitution. Additionally, three companies previously agreed to pay over
$6 million in civil settlements. During this reporting period, one former contractor employee
pled guilty to one count of misprision of a felony, and another former contractor employee pled
guilty to one count of having violated the Anti-Kickback Act.


Management and Operating Contractor Repays $4 Million in Fees
As a result of an OIG investigation, the Savannah River Site Management and Operating
contractor repaid the NNSA $4 million in award fees associated with construction of the Waste
Solidification Building, which processes waste from the Mixed Oxide Fuel Fabrication Facility.
The investigation determined the contractor provided NNSA with inaccurate and incomplete cost
and scheduling information that resulted in the higher fee being awarded. This is an ongoing
investigation.


Weatherization Contractor Enters into Pretrial Diversion Agreement
The U.S. Attorney’s Office for the District of Kansas entered into a pretrial diversion agreement
with the owner of a company contracted to provide weatherization services through funds
awarded to the State of Kansas under the Recovery Act. As a condition of the agreement, the
owner agreed to future debarment action, as well as 12 months of probation. The investigation
determined the owner submitted payroll reports that falsely certified all of the company’s
employees working on weatherization projects had been paid in accordance with minimum wage
requirements, when they had not. This was a joint investigation with the U.S. Department of
Labor’s OIG.




                                                                                                      Page 32
Former Department Contractor Employee Enters into a Pretrial Diversion
Agreement
The U.S. Attorney’s Office for the District of Oregon entered into a pretrial diversion agreement
with a former Department contractor employee. As a condition of the agreement, the former
contractor employee was required to pay $30,000 in restitution to the Department and remain on
good behavior for 18 months. The investigation determined that between 2003 and 2009, the
former contractor employee falsified transmission line testing reports that were submitted to the
Bonneville Power Administration (Bonneville).


Sentencing in Recovery Act Grant Fraud Investigation
An owner of a Department subcontractor company was sentenced in U.S. District Court for the
Western District of Texas to serve 60 months incarceration, 6 years supervised release, pay an
assessment, and forfeit interest and rights to 76 various weapons, explosive devices, stun
grenades, and ammunition with an estimated value of $16,175. The owner pled guilty to one
count each of being a felon in possession of a firearm and possession of a destructive device.
The investigation determined the owner and a former Texas State Recovery Act Grant
Coordinator conspired to submit fraudulent documents and false claims to obtain approximately
$2 million in Department Recovery Act funds. This was a joint investigation with multiple State
and Federal agencies.


Actions in Rhode Island Weatherization Assistance Program Bribery
Investigation
A former weatherization energy auditor for a community action agency was sentenced to 1 year
home confinement, 2 years probation, and 400 hours of community service. As previously
reported, the energy auditor pled guilty to one count of bribery and one count of false statements.
The investigation determined the former energy auditor accepted kickbacks in excess of $30,000
from a former weatherization subcontractor while working at a community action agency
between 2006 and 2007. The former energy auditor then made false statements regarding his
involvement in the kickback scheme during the OIG investigation. Additionally, in response to
an Investigative Report to Management (IRM), the weatherization auditor and the former
weatherization subcontractor were each debarred for 3 years for their involvement in the
bribery/kickback scheme. This was a joint investigation with multiple Government agencies.


Guilty Plea Reached in International Investigation
A former Department contractor employee pled guilty in the U.S. District Court for the District
of Minnesota to one count of violating bulk cash smuggling. The investigation determined that
the former Department contractor employee received cash bribes from subcontractors in Taiwan
who were working on a NNSA project and transported as much as $70,000 in cash back to the
United States without declaring it to Customs and Border Protection.

                                                                                                    Page 33
Former Department Contractor Employees Sentenced for Theft of
Government Property
Two former Idaho National Laboratory subcontractor employees were sentenced in the Butte
County District Court in Arco, Idaho, to 14 days incarceration and 3 years probation, and they
were fined $750 and $1,000, respectively. The two subcontractor employees each pled guilty to
one count of Grand Theft. The investigation determined that the two subcontractor employees
stole Department-owned tools and property from the Idaho National Laboratory.


Former Department Contractor Sentenced and Debarred for Theft of
Services
A former Oak Ridge National Laboratory contractor employee was sentenced in the Ninth
Judicial District of Tennessee to 3 years probation and ordered to pay restitution to the
Department in the amount of $20,000. The former contractor employee pled guilty to one count
of theft of services in connection with submitting falsified time sheets. Additionally, in response
to an IRM, the employee was debarred for a period of 3 years.


Former Subcontractor Employee Sentenced for Theft of Copper Wire
A former subcontractor employee at the Y-12 National Security Complex (Y-12) was sentenced
in the Seventh Judicial District of Tennessee in Anderson County to 30 months probation and
ordered to pay restitution to Y-12. The subcontractor pled guilty to one count of theft. The
investigation determined that the employee stole approximately 1,400 pounds of copper wire
from the Y-12 site and sold it at a local scrap yard on 15 separate occasions.


Oak Ridge Office Takes Action in Response to Investigative Report to
Management
The Oak Ridge Office (ORO) responded to an IRM that addressed its electronic information
management system. In response to the report, ORO created a new information security policy,
which consolidated existing policies into one document and included procedures for removable
media devices. Additionally, ORO procured auditing and forensics tools to help prevent any
future incidents. As previously reported, the investigation determined that a former Department
contractor employee copied proprietary software and a computer file from ORO systems
containing personally identifiable information for 16,068 current and former Department
employees and contractors without authorization prior to his termination.




                                                                                                      Page 34
Former Bonneville Contractor Employee Debarred
In response to an IRM, a former Bonneville contractor employee was debarred for a period of 3
years. As previously reported, the investigation determined that the individual embezzled
approximately $36,000 in Department funds for personal use and purchases including
electronics, gym memberships, and vacations.


Recovered Funds as a Result of an OIG Investigation
As a result of an OIG investigation, the Lawrence Livermore National Laboratory (Livermore)
paid $222,264 to the Department from its management fee. The investigation determined that a
Livermore contractor employee made an unauthorized purchase, reimbursed by the Department,
of equipment from a company in which he held a financial interest.


Former Bonneville Employee Debarred
The Deputy Director of the Office of Procurement and Assistance Management debarred a
former Bonneville Federal employee for a period of 3 years. As previously reported, the
investigation determined that the former Bonneville employee stole copper cable, worth more
than $20,000, from his duty location and was sentenced in Spokane County Superior Court,
Washington, to 1 day incarceration and ordered to pay $10,232 in restitution to Bonneville.


Former Department Employee’s Spouse Sentenced
The spouse of a former member of the Department’s Senior Executive Service was sentenced in
U.S. District Court in Greenbelt, Maryland, to serve 2 years probation, pay a $1,000 fine, and
ordered to pay the Department $104,000 in restitution. As previously reported, the spouse was
convicted on one count of aiding and abetting. The investigation determined the former
employee arranged for the spouse to receive over $1.2 million in consulting fees and subcontract
payments on a Department project the former employee orchestrated.


Former Department Contractor Employee Debarred
The Deputy Director of the Office of Procurement and Assistance Management debarred a
former National Energy Technology Laboratory (NETL) contractor employee for a period of 3
years. As previously reported, the former NETL contractor employee was convicted of stealing
over $5,000 in Government property from NETL and was sentenced in the Monongalia County
Circuit Court in Morgantown, West Virginia, to 2 years unsupervised probation, ordered to
perform 100 hours of community service, and fined. This was a joint investigation with the
Morgantown Police Department.




                                                                                                   Page 35
Guilty Plea in Western Area Power Administration Theft
An individual not affiliated with the Department pled guilty to theft of Government property and
destruction of an energy facility in the U.S. District Court for the District of Colorado. The
investigation determined that the individual and an accomplice burglarized a Western Area
Power Administration (Western) electrical substation in Sterling, Colorado, and stole several
items, including a vehicle. The OIG recovered most of the property, which was valued at
approximately $100,000. This was a joint investigation with the Federal Protective Service and
the Logan County, Colorado, Sheriff’s Office.


Returned Recovery Act Funds
The OIG was notified that a Department grantee returned $842,189 to the Department. The
grant funds were awarded under the Recovery Act, and an audit by the OIG determined that the
grantee used the funds for activities beyond the approved scope of work. Specifically, the
grantee, in lieu of pending work furloughs, paid some of its employees with Department funds to
work on unrelated non-profit projects outside of the workplace. This investigation continues in
support of Civil False Claims Act penalties.




                                                                                               Page 36
                               Audit Reports
The 2020 Vision One System Proposal for Commissioning and Startup of the
Waste Treatment and Immobilization Plant
The Department is considering a proposal known as the 2020 Vision One System (2020 Vision)
that would implement a phased approach to commissioning the $12.2 billion Waste Treatment
and Immobilization Plant (WTP) including making the Low-Activity Waste (LAW) facility
operational approximately 15 months before commissioning the remainder of the project.
Although the implementation of the phased approach offers potential benefits, early operation of
the LAW facility presents significant cost, technological and permitting risks that could
adversely affect the overall success of the Office of the River Protection Project's mission of
retrieving and treating Hanford Site's tank waste in the WTP and closing the tank farms to
protect the Columbia River. Despite identified challenges, the Department had not developed a
detailed analysis of the costs, benefits and risks of the proposal even after such steps were
recommended by two independent review teams. Department officials told us that they
completed a high level business analysis of certain WTP costs. However, our review found that
this effort did not include a cost analysis with sufficient detail to satisfy the recommendations in
the external review reports. Additionally, key technology attributes needed for the proposal may
not be adequately developed to support operations. In response to our findings, Department
management concurred with our recommendations, and proposed and initiated corrective actions
to develop a more detailed business case analysis and to gain stakeholder input on the early
treatment of LAW prior to making a decision to proceed with the proposal. (DOE/IG-0871)


The Department of Energy's Management of Foreign Travel
The Department and its workforce of 116,000 Federal and contractor personnel have numerous
international exchanges and interactions at different levels and for a variety of important
programmatic and other purposes. According to the Department's centralized travel database, the
Foreign Travel Management System (FTMS), Federal and contractor employees made
approximately 109,000 individual international trips at a cost of about $360 million from
FY 2007 through FY 2012— a 6-year period. Consistent with the Department's organizational
structure and its significant reliance on contractor assistance, the vast majority of these taxpayer-
funded trips, in fact about 85 percent, were taken by contractor employees. This equates to over
90,000 contractor employee foreign travel trips in the period with a cost to the government of
just over $300 million. Despite the sizable expenditure of Federal funds, the Department had not
made a concerted effort to reduce contractor international travel costs. In particular, we found
that the FTMS was not being fully utilized to identify overall trends in foreign travel, potential
wasteful practices, and possible strategies to reduce the Department's international travel
expenditures. Further, while the Department implemented a mandatory 30 percent reduction in
Federal employee travel, management officials informed us that parallel action had not been
taken to manage or control foreign travel by contractors. Based directly on the information
sourced from the FTMS, had the Department applied the 30 percent reduction criteria to the
international travel costs incurred by its 100,000 contractor workforce, as much as $15 million

                                                                                                    Page 37
could be saved each year. In response to our immediate concern, Department management
concurred with our recommendations and proposed and initiated corrective actions to assess and
reduce international travel expenditures. (DOE/IG-0872)


Management Challenges at the Department of Energy – FY 2013
The Department is a multi-faceted agency responsible for executing some of the Nation's most
complex and technologically advanced missions. Since the passage of the Department of Energy
Organization Act in 1977, the Department has shifted its emphasis and priorities over time as the
Nation's energy and security needs have evolved. In recent years, the Department has focused on
issues such as clean energy innovation, energy efficiency and conservation, and science and
engineering research and development. While these areas have received increased attention, the
Department has continued its vital work in the areas of environmental cleanup, nuclear weapons
stewardship, and nuclear nonproliferation. In order to execute this diverse portfolio, the
Department receives an annual appropriation approaching $30 billion, employs more than
115,000 Federal and contractor personnel, and manages assets valued at more than $180 billion,
including, among other facilities, 16 Federally Funded Research and Development Centers.

With this diverse set of agency objectives in mind, on an annual basis, the OIG identifies what it
considers to be the most significant management challenges facing the Department. Now
codified as part of the Reports Consolidation Act of 2000, under this effort we assess the
agency's progress in addressing previously identified challenges and consider emerging issues
facing the Department. Consistent with our mission, our goal is to use this process to advance
efforts to work with the Department to enhance the effectiveness of agency programs and
operations. (DOE/IG-0874)


Management of Western Area Power Administration’s Cyber Security
Program
The Department’s Western Area Power Administration (Western) markets and delivers
hydroelectric power and related services to 15 states within the central and western United
States. To successfully transmit hydroelectric power to customers and local utilities within its
territory, Western relies on a number of information systems that support the operation,
maintenance and management of a massive electrical power complex, as well as financial and
administrative activities. The audit found that Western had made a number of enhancements to
its cyber security program since our prior review. However, we identified several weaknesses
related to vulnerability management and security controls that could negatively impact its cyber
security posture. In particular, nearly all of the workstations tested contained at least one high-
risk vulnerability related to software updates or patches. Also, during internal vulnerability
scanning, a network server was running an unsupported version of a software application and 30
network servers were identified that contained vulnerabilities that could have been made more
secure by applying publicly available security patches and updates. In addition, external
vulnerability testing revealed a public-facing application server that was configured with a
default username and password, and testing of cyber security controls identified weaknesses
related to access security controls. The weaknesses identified occurred, in part, because Western

                                                                                                     Page 38
had not always implemented policies and procedures related to vulnerability and patch
management. In response to our finding, Department management concurred with the
recommendations and initiated corrective actions for program improvements. (DOE/IG-0873)


Review of the Compromise of Security Test Materials at Y-12 National
Security Complex
Following the July 28, 2012, security breach at Y-12, the Department’s Office of Health, Safety
and Security (HSS) was tasked with conducting a comprehensive inspection of the site's security
organization. The inspection, initiated on August 27, 2012, included both practical exercises and
tests designed to evaluate the knowledge, skills and abilities of the site's Protective Force. In our
continued monitoring of the situation, the OIG initiated a special review into alleged compromise
of the HSS inspection.

Our inquiry confirmed that the security knowledge test, including answers to the test questions,
had been compromised and that it had been distributed in advance of the test to numerous WSI-
Oak Ridge (WSI-OR) Captains, Lieutenants, and Security Police Officers, the very people whose
knowledge was to have been evaluated as part of this process. Specifically, despite the fact that
the document was labeled as a test and was initially distributed via encrypted email to
individuals appointed as "Trusted Agents," WSI-OR officials treated the document as if it were a
training aid, mentioned its receipt at daily Protective Force supervisor meetings, and widely
distributed it to a variety of officers.

We observed several opportunities to improve the integrity and transparency of the knowledge
testing process. Although the Federal official who initially distributed the test took action to
protect its contents by encrypting the email used to transmit it and sending it only to "Trusted
Agents," the email did not contain specific instructions for protecting the test against
compromise. The transmitting email only asked for comments on the applicability of the
security questions to the Y-12 environment. The lack of detailed instructions is particularly
relevant in that the Department Order regarding the designation of "Trusted Agents" does not
specifically mention that the practice is also applicable to security knowledge tests. In addition,
as with the recent intrusion at the Highly Enriched Uranium Materials Facility described in our
Special Report on Inquiry into the Security Breach at the National Nuclear Security
Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012), problems with
the administration of the NNSA 's contractor governance system appeared to have had a role in
the compromise of the test materials at Y-12, certainly, the assurance system did not prevent the
compromise. Therefore, we made several recommendations that, if fully implemented, should
help restore confidence in the integrity of the Department's protective forces.

Management did not agree that its implementation of the governance process was a contributory
cause of the knowledge test compromise. We recognize that there was a breakdown of controls
at the contractor level regarding the Trusted Agent concept. However, our analysis also led us to
conclude that there was a more fundamental issue involving the lack of in-depth security
knowledge and involvement of Federal oversight officials. Management agreed to implement
our recommendations regarding the integrity of security testing at all sites.


                                                                                                      Page 39
After publication of our report, Babcock and Wilcox Technical Services Y-12 (B&W Y-12) sent
the Office of Inspector General a letter asking us to clarify one aspect of the report. Specifically,
B&W Y-12 believed that a reader could incorrectly conclude from our report that one of its
management officials routinely distributed proposed tests to security police officers prior to the
test being administered. As our report notes, however, the B&W Y-12 official told us that the
test was distributed to “protective force management” for validation prior to
administration. (DOE/IG-0875)


The Department of Energy's Small Business Innovation Research and Small
Business Technology Transfer Programs
The Department’s Small Business Innovation Research (SBIR) and Small Business Technology
Transfer (STTR) programs award grants to encourage scientific effort leading to the application
of new ideas and technology. The combined annual funding available for these two programs
grew from $116.8 million in FY 2006 to $175.5 million in FY 2012. In addition, the programs
received $92 million in American Recovery and Reinvestment Act of 2009 funding. The audit
found that the Department had not always effectively managed the SBIR and STTR programs.
Specifically, we identified problems with grant financial management and grant award scoring;
and substantiated an allegation that potential conflicts of interest had not been identified and
properly mitigated. In the area of financial management, we found that grant closeouts
continued to be an issue and the Department had not fully addressed prior concerns regarding
questioned costs. During the audit, we also identified an additional $534,000 in erroneous and
unsupported costs involving bid and proposal costs, costs not allocable to the grant, excess labor
charges not in compliance with Federal cost principles, and costs that lacked documentation. A
Chicago Office official told us the closeout backlog was due to an increasing workload and
insufficient resources. Also, we noted that neither topic managers nor merit reviewers were
required to certify for each funding opportunity announcement that they were free from conflicts
of interest. In response to our finding, management generally concurred with the
recommendations and proposed corrective actions to address issues identified in the areas of
financial management and grant awards. (DOE/IG-0876)


The Department's Unclassified Cyber Security Program - 2012

As the use of information technology resources continues to expand, the number of cyber
security threats against Federal agencies has also increased. To help mitigate the risks posed by
such threats, the Department expended significant resources in FY 2012 on cyber security
measures designed to secure its information systems and data that support various program
operations. We noted that the Department and the NNSA took corrective actions to address 40
of 56 weaknesses identified during our prior year evaluation and initiated a transition to a more
risk-based approach to securing its resources. While this is a positive trend, our current
evaluation found that the types and severity of weaknesses continued to persist and remained
consistent with prior years. In addition to the 16 previously identified weaknesses that remained
uncorrected, including 4 from FY 2010, an additional 22 cyber security weaknesses were
identified at various locations including problems with access controls, vulnerability
management, integrity of web applications, planning for continuity of operations, and change

                                                                                                     Page 40
control management. The weaknesses identified occurred, in part, because Department elements
had not ensured that cyber security requirements were fully developed and implemented. In
addition, programs and sites had not always effectively monitored performance to ensure that
appropriate controls were in place. The Department concurred with the finding and
recommendations, and agreed to take necessary corrective actions. (DOE/IG-0877)


Follow-up Audit of the Department's Cyber Security Incident Management
Program
The Federal Information Security Management Act of 2002 requires each agency to implement
procedures for detecting, reporting and responding to cyber security incidents, including
notifying and consulting with the Federal information security incident center, law enforcement
agencies and Inspectors General. To meet this requirement and counter the threat posed by cyber
attacks, the Department's Office of the Chief Information Officer, the NNSA and a number of
field sites established organizations to provide expertise in preventing, detecting, responding to
and recovering from cyber security incidents. In 2008, we reported in The Department's Cyber
Security Incident Management Program (DOE/IG-0787, January 2008) that the Department and
NNSA established and maintained a number of independent, at least partially duplicative, cyber
security incident management capabilities.

Although certain actions had been taken in response to our prior report, we identified several
issues that limited the efficiency and effectiveness of the Department's cyber security incident
management program and adversely impacted the ability of law enforcement to investigate
incidents. For instance, we noted that the Department and NNSA continued to operate
independent, partially duplicative cyber security incident management capabilities at an annual
cost of more than $30 million. The issues identified were due, in part, to the lack of a unified,
Department-wide cyber security incident management strategy. In response to our finding,
management concurred with the recommendations and indicated that it had initiated actions to
address the issues identified. (DOE/IG-0878)


Naval Reactors Information Technology System Development Efforts
Our review identified continuing system development issues related to the Enterprise Business
System (EBS). In particular, we found that neither Naval Reactors Program (Naval Reactors)
officials nor the project contractors had adequately considered the use of a commercial off-the-
shelf product prior to upgrading and modernizing the financial components of EBS.
Specifically, the project team was unable to provide any formal analyses or justification for
developing the system in-house. In addition, the EBS project had not been reported to the
Department and the OMB as a Major Information Technology Investment, as required.
Specifically, despite spending approximately $10 million of the budgeted $12.8 million for the
procurement phase of the EBS development effort, officials had not submitted the required
budgetary information to the Department or OMB, an action that could have allowed for
improved performance monitoring.



                                                                                                    Page 41
The weaknesses identified were due, in part, to the lack of adherence to Federal and Naval
Reactors policies and procedures. In addition, we noted that a lack of a coordinated effort
between the project stakeholders and team members likely contributed to project delays and cost
increases. Without adherence to appropriate system development requirements, future
information system development efforts may experience problems similar to those identified in
our report related to project management and result in schedule delays and cost overruns.
Management generally concurred with the report's recommendations and indicated that it will
take action to address our recommendations. (DOE/IG-0879)


Management of Los Alamos' Cyber Security Program
Los Alamos National Laboratory (Los Alamos), operated by the NNSA on behalf of the
Department, is one of the world's largest multi-disciplinary laboratories and is primarily
responsible for helping to ensure the safety and reliability of the Nation's nuclear stockpile as
part of the Department's Stockpile Stewardship Program. To accomplish program goals and
objectives, Los Alamos operates and manages numerous information systems and networks to
support the research, business and communication needs of its users. Although Los Alamos
spends a significant amount of funds on information technology (IT) activities, we were unable
to obtain an accurate amount due to the Laboratory's limited ability to track its IT spending. The
audit found that while additional action is needed, Los Alamos had taken steps to address
concerns regarding its cyber security program raised in prior evaluations. However, our audit
identified continuing concerns related to Los Alamos' implementation of risk management,
system security testing and vulnerability management practices. For instance, Los Alamos had
not always developed and implemented an effective risk management process consistent with
Federal requirements; had not always ensured that it had developed, tested and implemented
adequate controls over its information systems; and had not always properly addressed critical
and high-risk vulnerabilities. The issues identified occurred, in part, because of a lack of
effective monitoring and oversight of Los Alamos' cyber security program by the Los Alamos
Site Office, including approval of practices that were less rigorous than those required by Federal
directives. In response, NNSA management concurred with the finding and recommendations
and agreed to take necessary corrective actions. (DOE/IG-0880)


NNSA Contractor Governance
Since July 2007, the Department and the NNSA have required contractors to implement self-
assessment systems to measure performance and help ensure effective and efficient mission
accomplishment. In essence, contractors assessed and evaluated their own performance with
some level of Federal oversight. Our audit found that despite at least 5 years of effort, NNSA
and its support offices and site contractors had not yet implemented fully functional and effective
contractor assurance systems. During our recent audit, we identified significant implementation
issues that adversely affected NNSA's ability to deploy an effective contractor governance
system. For instance, contractor weaknesses identified at the site level were not effectively
communicated to senior management officials and contractor self-assessments were not effective
in identifying safety weaknesses subsequently identified by independent reviews. Further, we
found that Federal officials had not provided effective oversight of contractor operations as part

                                                                                                  Page 42
of the governance approach. To its credit, NNSA had self-identified deficiencies with contractor
assurance system implementation and recognized the need to improve contractor assurance
systems and its overall approach to contractor governance. NNSA plans an initiative to reform
its contractor governance model. Therefore, we made several suggestions to NNSA to include
establishing effective lines of communication between the sites and senior NNSA managers and
mandating effective contractor self-assessments of operations. In response, NNSA management
agreed with the suggestions and to address them in future efforts to re-evaluate and enhance their
processes. (DOE/IG-0881)


Paducah Gaseous Diffusion Plant's Waste Diversion Efforts
Executive Order 13423, Strengthening Federal Environmental, Energy, and Transportation
Management, mandates that each Federal facility maintain a cost-effective waste prevention and
recycling program. Further, Executive Order 13514, Federal Leadership in Environmental,
Energy, and Economic Performance, requires that Federal agencies achieve a 50 percent
diversion rate for construction and demolition materials and debris and a 50 percent rate for non
hazardous solid waste by the end of FY 2015. The Paducah Gaseous Diffusion Plant (Paducah)
operations are carried out by three prime contractors and each plays a contributing role in the
Department's overall waste diversion effort. Because of record keeping weaknesses, we could
not determine whether Paducah was effectively diverting materials from the waste stream.
While Paducah reported that it had exceeded the 50 percent diversion goals, we found that the
data supporting that calculation was unreliable. In particular, we noted that Paducah lacked an
accurate method of measurement of waste generation and disposal. Further, we found that the
contractors had not always assessed or acted on all opportunities to divert waste from landfill
disposal and were inconsistent in their diversion efforts. The problems we identified occurred, in
part, because Paducah did not place sufficient emphasis on waste diversion. Management
generally concurred with the report's recommendations and identified actions it has taken or
planned to achieve synergies and improve waste diversion efforts. (OAS-M-13-01)


Cooperative Research and Development Agreements at NNSA Laboratories
In 1989, the National Competitiveness Technology Transfer Act established technology transfer
as a Federal mission and authorized government-owned, contractor-operated laboratories to use
Cooperative Research and Development Agreements (CRADAs) to facilitate the development
and transfer of technology to the private sector. The NNSA site offices located at each
laboratory are responsible for ensuring that laboratories obtain final reports documenting the
results of research and any new inventions or technology, and forward copies of the reports to
the Department's Office of Scientific and Technical Information (OSTI), which is ultimately
responsible for preserving the scientific and technical information and making this information
readily available to the scientific community and the public. We found that NNSA laboratories
were managing the use of selected CRADA activities that we tested in an effective manner. For
example, we found that the three laboratories we visited generally met the requirements for
CRADAs. However, we found that controls could be improved in the area of obtaining and
disseminating CRADA results. Specifically, we found that NNSA laboratories had not always
obtained final reports from researchers for completed and terminated projects, and forwarded the

                                                                                                 Page 43
obtained reports to OSTI for dissemination. Reporting issues occurred because the NNSA site
offices had not consistently overseen CRADA activities at the three national laboratories we
reviewed. In particular, the site offices had not always ensured that the laboratories had
implemented policies and procedures related to obtaining final reports and transmitting final
reports to OSTI and that such policies and procedures were effective. In response to the
findings, management concurred with our recommendations and proposed corrective actions to
improve obtaining and disseminating results. (OAS-M-13-02)


The Federal Energy Regulatory Commission's Unclassified Cyber Security
Program – 2012
To achieve its mission, the Federal Energy Regulatory Commission (Commission) relies on a
wide range of IT resources to help ensure that rates and terms and conditions for the wholesale of
electric energy and natural gas are just and reasonable, and promote the development of a safe,
reliable and efficient energy infrastructure. To help protect against continuing cyber security
threats, the Commission estimated that it would expend approximately $5.3 million during
FY 2012 to secure its IT assets, a 39 percent increase from FY 2011. The Commission had taken
action to further improve its cyber security posture and mitigate risks associated with the
weaknesses identified during our FY 2011 evaluation. While these actions are noteworthy, our
current evaluation disclosed that additional opportunities existed to better protect its information
systems and data. Specifically, we continued to identify weaknesses related to the Commission's
timely remediation of software vulnerabilities. As in past years, the problems we identified with
the Commission's vulnerability management process were due, in part, to less than fully effective
implementation of policies and procedures. In addition, Commission officials informed us that
they did not follow their existing Vulnerability Management Program policies due to budget and
resource constraints. As corrective action was initiated by management in certain instances, we
made a suggestion to the Executive Director to update existing vulnerability and patch
management procedures as needed to ensure that security vulnerabilities are remediated and
verified in a timely manner. (OAS-L-13-01)


Questioned, Unresolved and Potentially Unallowable Costs Incurred by Los
Alamos National Laboratory During FY 2010
On November 19, 2012, we issued a separate contract audit report on Assessment of Audit
Coverage of Cost Allowability for Los Alamos National Laboratory during Fiscal Year 2010
under Department of Energy Contract No. DE-AC52-06NA25396 (OAS-V-13-01, November
2012). The objectives of the assessment included determining whether questioned costs and
internal control weaknesses that were identified in audits and reviews and impacting allowable
costs had been adequately resolved and whether Los Alamos conducted or arranged for audits of
its subcontractors when costs incurred were a factor in determining the amount payable to a
subcontractor. We identified approximately $50,000 in questioned and unresolved costs claimed
by Los Alamos during FY 2010. We also identified nearly $24 million in subcontract costs
requiring audit; nearly $1.4 million in unresolved questioned subcontract costs; and,
approximately $10.7 million in unresolved costs pertaining to a potential Anti-Deficiency Act
violation. Finally, we identified more than $434 million in previously reported unresolved costs

                                                                                                   Page 44
from prior years. The NNSA's management agreed with the findings and recommendations and
provided proposed corrective actions. (OAS-L-13-02)


The Management of the Plateau Remediation Contract
Our review largely substantiated the allegations that CH2M Hill Plateau Remediation Company
(CHPRC) had not provided change proposals and performance baselines that met contract and
Federal Acquisition Regulation requirements and that the Department had not corrected
performance issues. Specifically, CHPRC had not always submitted timely and/or well
supported contract change proposals. Additionally, the Department was not always timely in
formally notifying the contractor of needed work scope changes, which contributed to delays in
finalizing performance baselines. As such, the Department could not always effectively measure
the contractor’s cost performance.

In response to the draft version of this report, EM concurred with the recommendations, but
disagreed with several of the conclusions and observations. Accordingly, we made changes to
the report, where we deemed appropriate, and provided several suggested actions to improve
contract management. (OAS-L-13-03)


Department of Energy's Management of Surplus Nuclear Materials
We found the Department strengthened its nuclear materials management program by
developing a life cycle nuclear materials management policy, implementing strategic plans for
consolidation and disposition of nuclear materials and refining its nuclear materials management
organization. However, we determined that challenges remain.

Despite requirements, the Department's Office of Nuclear Material Integration had formally
proposed and gained Program and field element approval of only one Lead Material
Management Organization (LMMO) to integrate and coordinate the management of specific
nuclear materials. Some nuclear materials were being managed by de facto or provisional
LMMOs. Also, although the Department's draft Strategic Plan concluded that specified surplus
nuclear reactor components contain rare isotopes that are virtually irreplaceable and vulnerable
to be processed as waste for permanent disposal, the Department had not designated certain
nuclear materials as National Assets to enable their retention and continued availability.

We determined that Department officials are in discussions with program offices to designate
additional LMMOs as warranted, and are working to identify materials for National Asset
designation. We made two suggestions to further strengthen the nuclear materials management
program. First, the Department should finalize its efforts to formally designate LMMOs to
facilitate the integration and coordination of nuclear materials disposition; and second, complete
the determination for the types and quantities of surplus nuclear materials containing valuable
isotopes to be preserved for future programmatic and national needs before the opportunity is
lost. (OAS-L-13-04)



                                                                                                     Page 45
The Department of Energy's International Offices and Foreign Assignments
In support of its mission, the Department’s Federal and contractor employees travel extensively
worldwide. Furthermore, the Department maintains a cadre of Energy Attachés and specialized
personnel in Department offices located in U.S. Embassies, missions, consulates and military
commands.

We found that the Department and its contractors, for the most part, effectively managed the
selected administrative activities included in our review of international offices and foreign
assignments. We did, however, note opportunities to improve international office and foreign
assignment administration. Specifically, the Department was unable to fill, or fill in a timely
manner, key positions at three international offices. We also observed that foreign permanent
changes of station (PCS) and foreign travel were not always properly managed at the contractor
level.

We noted that the Department is in the process of taking action to fill the vacancies at its
international offices. However, to address the concerns noted in this report, we suggested the
Department fully implement Department Order 313.1, Management and Funding of the
Department's Overseas Presence, and ensure that the laboratories follow the Department's PCS
and foreign travel policies and procedures. (OAS-L-13-05)


NNSA's Weapons Dismantlement and Disposition Program
The NNSA met or exceeded its nuclear weapons dismantlement and nuclear weapon components
disposition program goals for FYs 2010 and 2011. However, we noted potential issues related to
the infrastructure for staging nuclear weapons, nuclear weapon components, and other weapon
components at the Pantex Plant that could impact future dismantlement efforts and other
Directed Stockpile Work programs. According to Pantex officials, as the infrastructure for
staging nuclear materials at Pantex continues to age without needed improvements, Pantex may
not be able to provide the level of protection required for safe and secure staging operations of
nuclear materials. The security system in place to protect the Plant's Zone 4 Material Access
Area was installed in the 1990s with an expected useful life of 20 years and has been due for
refurbishment. Additionally, warehouses containing pits and nuclear explosives are deteriorating
and in need of varying degrees of repairs. We also noted that facilities Pantex uses to stage
weapon components are nearing their capacity levels. Additionally, Pantex could not provide
documentation showing the estimated volume of space needed to store weapon components from
future dismantlements and volume of space created through the disposition of components to
demonstrate sufficient storage capacity for future dismantlement operations. (OAS-L-13-06)




                                                                                                  Page 46
The Federal Energy Regulatory Commission's FY 2012 Financial Statement
Audit

KPMG, LLP (KPMG) concluded that the financial statements present fairly, in all material
respects, the financial position of the Commission as of September 30, 2012, and its net costs,
changes in net position, budgetary resources, and custodial activity for the years then ended, in
conformity with United States generally accepted accounting principles.

The auditors' review of the Commission's internal control structure and compliance with certain
laws and regulations disclosed no material weaknesses or instances of noncompliance required to
be reported under generally accepted Government auditing standards or applicable Office of
Management and Budget guidance. (OAS-FS-13-03)


Department's FY 2012 Consolidated Financial Statement
KPMG audited the consolidated balance sheets of the Department as of September 30, 2012 and
2011, and the related consolidated statements of net cost, changes in net position, and custodial
activity, and combined statement of budgetary resources, for the years then ended. KPMG
concluded that these consolidated financial statements are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles and has issued an
unqualified opinion based on its audits and the reports of other auditors for the years ended
September 30, 2012 and 2011.

As part of this review, auditors also considered the Department's internal controls over financial
reporting and tested for compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the consolidated
financial statements. The audit revealed certain deficiencies in internal controls over financial
reporting related to unclassified network and information systems security that were considered
to be a significant deficiency. The aforementioned significant deficiency in the Department's
system of internal controls is not considered a material weakness. (OAS-FS-13-04)


Department’s Nuclear Waste Fund's FY 2012 Financial Statement Audit
KPMG audited the Department’s Nuclear Waste Fund's (Fund) FY 2012 balance sheet and the
related statements of net cost, changes in net position and budgetary resources. KPMG
concluded that the financial statements present fairly, in all material respects, the financial
position of the Fund as of September 30, 2012 and 2011, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with United States
generally accepted accounting principles.

The auditors' review of the Fund's internal control structure and compliance with certain laws
and regulations disclosed no material weaknesses or instances of noncompliance required to be
reported under generally accepted Government auditing standards or applicable Office of
Management and Budget guidance. (OAS-FS-13-05)


                                                                                                     Page 47
Southwestern Federal Power System's FY 2011 Financial Statement Audit
We contracted with the independent public accounting firm of KPMG to audit the combined
balance sheets of the Southwestern Federal Power System (SWFPS) as of September 30, 2011
and 2010, and the related combined statements of changes in capitalization, revenues and
expenses, and cash flows for the years then ended. KPMG concluded that the combined
financial statements present fairly, in all material respects, the respective financial position of the
SWFPS as of September 30, 2011 and 2010, and the results of its operations and its cash flow for
the years then ended, in conformity with United States generally accepted accounting principles.

As part of this review, the auditors also considered SWFPS's internal controls over financial
reporting and tested for compliance with certain provisions of laws, regulations, contracts and
grant agreements that could have a direct and material effect on the determination of financial
statement amounts. The audit identified four internal control deficiencies over accounting for
utility plant and five internal control deficiencies over Accounting Policies and Procedures, each
of which were considered to be significant. When combined together, these conditions were
considered a material weakness. (OAS-FS-13-06)

Management Letter on the Audit of the Department's Consolidated Financial
Statements for FY 2012
KPMG noted certain matters involving internal control and other operational matters during their
audit of the Department's Consolidated Financial Statements for FY 2012. These matters are
intended to improve the Department's internal controls or result in other operational efficiencies.

The management letter contains 16 new findings and 7 repeat findings that were issued during
the course of the FY 2012 Audit of the Department's Consolidated Financial Statements.
Management generally concurred with and provided planned corrective actions for most of the
recommendations listed in the management letter and management's comments are included in
each finding. (OAS-FS-13-08)


Department's Isotope Development and Production for Research
and Applications Program's FY 2010 Balance Sheet Audit
We contracted with the independent public accounting firm of KPMG to express an opinion on
the Department's Isotope Development and Production for Research and Applications Program's
(Isotope Program) FY 2010 Balance Sheet. KPMG concluded that the Isotope Program's
balance sheet as of September 30, 2010, is presented fairly, in all material respects, in conformity
with United States generally accepted accounting principles. The auditors' consideration of
internal control over financial reporting resulted in two material weaknesses (Controls over
Inventory Accounting; and, Improvements Needed in the Preparation and Review of Manual
Journal Entries) and one significant deficiency (Unclassified Network and Information Systems
Security). (OAS-FS-13-09)




                                                                                                      Page 48
                       Inspection Reports
Allegations of Organizational Conflicts of Interest at Portsmouth and Oak
Ridge
The integrity of the Federal acquisition process is protected, in part, by Organizational Conflicts
of Interest (OCI) rules. These rules are designed to help the Government in identifying and
addressing circumstances in which a Government contractor may be unable to render impartial
assistance or advice. This report focuses on primary contractors and subcontractors at the
Portsmouth Gaseous Diffusion Plant and the Oak Ridge Reservation. In June 2011, the OIG
Hotline received a complaint alleging that there was potential OCI involving contractors
Restoration Services, Inc. (RSI) and VETCO, LLC-Technical Services Company (VETCO) at
Portsmouth. The complainant further alleged that potential OCI also existed between contractors
URS CH2M Hill Oak Ridge, LLC, (UCOR) and RSI at Oak Ridge. We substantiated the
allegation that OCI existed at Portsmouth and that potential OCI existed between contractors at
Oak Ridge. Specifically, we confirmed that an OCI existed at Portsmouth involving a continuing
financial interest between RSI and VETCO. We also confirmed that potential OCI at Oak Ridge
existed between UCOR and RSI based on impaired objectivity concerning the review of work
performed by RSI. We found that the actual and potential conflicts outlined in our report either
had not been properly mitigated or identified by either the contractors or the federal officials
involved. Management comments were generally responsive at both locations and concurred
with the recommendations and took corrective actions to address the OCI issues by accepting
mitigation plans submitted by the contractors. (INS-O-13-01)


Tactical Response Force Pursuit Operations at Idaho National Laboratory
Because of the presence of nuclear materials, Federal regulations require Idaho's contractor to
maintain a highly trained Tactical Response Force to protect nuclear weapons, weapon
components and Special Nuclear Material. As part of Idaho's protection strategy, the Tactical
Response Force is equipped with vehicles to respond to attacks and pursue adversaries. It is
possible for adversaries to cross jurisdictional lines and enter into a jurisdiction where several
different Federal, state and local law enforcement agencies reside. Because such activities have
the potential to endanger members of the public, we initiated this inspection to determine
whether Idaho's Tactical Response Force was properly prepared, trained and equipped to execute
its mission related to pursuit of suspects across jurisdictional lines. Our inspection revealed
several weaknesses with Idaho's approach to pursuits that could cross jurisdictional lines. In
particular, we identified problems with coordination, communication and equipment that could,
if not addressed, result in confusion and lead to injury of members of the public. Specifically,
we found that: Idaho had not coordinated with and established Memorandums of Understanding
with other law enforcement bodies regarding specific roles and responsibilities during pursuits
across jurisdictional lines; Emergency notification procedures necessary to communicate with
Federal, state or local law enforcement agencies during pursuit operations across jurisdictional
lines were not formalized and documented; and, Tactical Response Force vehicles were not
properly equipped to adequately alert the public during pursuit operations. Management

                                                                                                  Page 49
concurred with the report and management's comments and planned corrective actions are
responsive to our report findings and recommendations. (INS-O-13-02)


Radiological Waste Operations in Area G at Los Alamos
Los Alamos has a national security mission that includes science, engineering and technology
related to radioactive and hazardous materials such as plutonium, americium, asbestos and lead.
Material Disposal Area G (Area G), located in Technical Area 54, is one of Los Alamos' active
disposal areas for low-level radioactive waste. To help ensure that operations are conducted in a
safe and efficient manner, Los Alamos developed a program to integrate management and
radiological waste operations work practices in Area G. Assessments completed by the Los
Alamos Field Office and the Department’s Office of Enforcement and Oversight, Office of
Health, Safety and Security in 2011 identified operational problems that could adversely impact
safety at Los Alamos. The inspection found that Los Alamos developed corrective actions
designed to address safety issues identified during the 2011 safety assessments. However, we
identified opportunities for further improvements regarding training, the consistency of Area G
operational activities with safety requirements, and updating safety-related documents. For
instance, we found that seven individuals who worked in Area G did not complete the required
safety training, and an additional two individuals' training files were not updated with the
employees' most current training information. Also, some Area G operational activities were not
conducted in a manner that was consistent with specific operational safety requirements. In
several observed instances, Los Alamos did not ensure Area G operated in a manner that
supported the adequate protection of the workers and the environment, consistent with the
required safety standards and operational safety requirements. In response to our finding,
management generally agreed with the recommendations and indicated it was in the process of
implementing or completing corrective actions to ensure that Area G operations are conducted in
a safe manner. (INS-O-13-03)


Alleged Conflict of Interest at Sandia
We received a congressional request on behalf of a constituent alleging that another Federal
agency's use of support provided by the Department facilitated an organizational conflict of
interest (OCI). Specifically, it was alleged that support provided by Sandia was inappropriate in
that it amounted to direct competition with the private sector, an activity prohibited by Federal
Regulation. The competition allegedly occurred when Sandia provided products similar to those
that had been successfully developed and demonstrated by the constituent. It was further alleged
that Sandia began its prohibited competitive activity after serving in a position where it provided
technical oversight of the constituent's work. The details of this report are for Official Use Only.
(INS-L-13-01)




                                                                                                   Page 50
Alleged Improper Use of Patented Technology at the Idaho National
Laboratory

We received a congressional request on behalf of a constituent alleging that the Idaho National
Laboratory (INL) planned to market a constituent's patented technology in direct competition
with the private industry. Specifically, it was alleged that the constituent pioneered the use of a
particular technology and that INL planned to work with other Government agencies using that
technology while excluding the constituent. The details of this report are for Official Use Only.
(INS-L-13-02)


Continuity of Operations Planning and Intelligence Readiness
National Security Presidential Directive-20, National Continuity Policy, establishes continuity
requirements for all executive departments and agencies. The Department developed
Department Order 150.1, Continuity Programs, which establishes requirements to assist the
Department with effectively responding to a wide range of events that may disrupt normal
operations. The Office of Intelligence and Counterintelligence (IN), a critical partner within the
Department and the Intelligence Community, is responsible for providing timely intelligence to
the Secretary of Energy and other executive branch agencies on threats to energy and nuclear
information. IN also provides support to the Director of National Intelligence and serves as
liaison to the National Joint Terrorism Task Force. In our report on Improvements Needed in the
Department's Emergency Preparedness and Continuity of Operations Planning, (DOE/IG-0845,
January 2011), we identified significant weaknesses in the Department's emergency preparedness
and Continuity of Operations Planning (COOP) programs. Because of the importance of
carrying out the Department's key intelligence functions during a continuity event, we initiated
this inspection to assess IN's COOP and intelligence readiness. Our inspection revealed that
although IN has made various changes to its COOP Implementation Plan to facilitate intelligence
readiness, additional actions could be taken to enhance its capabilities during a continuity event.
Our review also identified certain issues with continuity communications (classified and
unclassified), the results of which are included in a separate classified annex. (INS-L-13-03)


Allegations Concerning Contracting for Services of Former Employees at
Sandia

Sandia subcontracts with various suppliers for services not available at the Laboratories. We
received an anonymous complaint alleging that: (1) Sandia hired former employees as
consultants at salaries exceeding what they were paid prior to retirement; and (2) one former
employee was brought back through an independent consulting company for over a decade. It
was also alleged that Sandia officials responsible for approving certain hiring actions were adept
at circumventing rules and regulations. We substantiated the allegations. Specifically, in eight
cases we reviewed, Sandia acquired the services of former employees and paid them a higher
hourly rate than the employees received prior to retiring. In addition, one former employee
worked as a consultant over a period of 10 years under two separate 5-year subcontracts. While
neither of these conditions violated any Federal guidelines, we did find that the practices we

                                                                                                      Page 51
observed violated internal Sandia policies regarding the employment of former employees. It
should be noted that Sandia has been concerned about the use of former employees as
contractors and has explored ways of limiting the employment of former employees as
consultants, service contractors or staff augmentation employees. As a result, Sandia revised its
policy to limit, among other things, work hours and the overall period of performance.
However, as demonstrated in our report, it is clear that under current policy the period of
performance of former employees hired as consultants can be extended for significant periods,
potentially muting Sandia's intent to limit the use of former employees. Because no violations of
Federal or Departmental policy were found, no formal recommendations were made.
(INS-L-13-04)


Alleged Wasteful Spending Regarding International Travel for the
Department’s Deputy Secretary
The Department's Deputy Secretary represents the U.S. Government, the Department and the
Secretary in many high-level international and ministerial meetings. In this role, the Deputy
Secretary is authorized executive protection while on international travel for security purposes,
to reduce the risk of harm and aid mission accomplishment. During such travel, the Deputy
Secretary is authorized premium class (first or business class) accommodations, and is usually
accompanied by a special agent with law enforcement authority from the Department's Office of
Special Operations (OSO), a component of the Office of Health, Safety and Security.

We received a complaint that, among several issues, alleged mismanagement of the Deputy
Secretary's travel. Specifically, it was alleged that the Deputy Secretary "…directed the use of
premium class accommodations while on international travel to maintain business class travel
status, resulting in wasteful spending." We initiated this inspection to examine the facts and
circumstances surrounding this allegation. The allegation that the Deputy Secretary improperly
influenced or directed the use of premium class accommodations while on international travel
was not substantiated.

Our inspection, however, revealed an administrative issue regarding the OSO's maintenance of
documentation prepared to support the need for premium class accommodations. After we
brought this issue to their attention, OSO officials initiated steps to address this issue.
(INS-SR-13-01)


Approval of Contractor Executive Salaries by Department of Energy
Personnel

In April 2011, the Department awarded a nearly $2.2 billion contract to UCOR for the
environmental cleanup at the East Tennessee Technology Park, Oak Ridge, Tennessee. As a
support provider for the Office of Environmental Management, ORO is responsible for oversight
of the UCOR contract, including analyzing and performing market analyses to assess the
reasonableness of the proposed contractor executive salaries. The OIG received a complaint
alleging that an ORO senior management official approved salaries for UCOR executives that
were higher than the ORO Human Resources (ORO HR) calculated market rates without proper
                                                                                                    Page 52
authority. The inspection confirmed the essence of the complaint. The review revealed that a
former ORO senior management official deviated from requirements established in the awarded
contract by approving UCOR contractor executive salaries that were higher than the market rates
calculated by ORO HR officials. For instance, we found that without proper authority, a former
ORO senior management official approved 10 contractor executive salaries that exceeded market
salary rates calculated by the ORO HR office. The issues identified were the result of several
contributing factors, including inconsistently applied guidance related to the process for setting
salaries. In response to the finding, management generally concurred with the recommendations
and proposed corrective actions to address inconsistently applied guidance, improve the
contractor executive salary setting process, and better control salary costs. (DOE/IG-0882)




                                                                                                 Page 53
                    Recovery Act Reports
The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. The OIG’s overarching goal, as with all
other work, is to ensure that the taxpayers' interests relating to the performance and results of the
Recovery Act are protected.


Implementation of the Department’s Concentrating Solar Power Program

The Department's Office of Energy Efficiency and Renewable Energy's Concentrating Solar
Power Program is intended to broaden the use of concentrating solar power by making the
technology cost competitive in the conventional power market. The Department plans to achieve
this goal through cost-shared contracts with private industry, as well as facilitating advanced
research at its national laboratories. Concentrating solar power technologies concentrate the
sun's energy and convert it to heat which is then used to drive an engine or turbine to produce
electrical power. The audit found that the Department had implemented controls over the
selection and monitoring of both its Baseload and Recovery Act Awards. For its Baseload
Awards, the Department developed and implemented a control process that, in our opinion,
provided reasonable assurance that funds were properly awarded and subsequently managed.
Similarly, for its Recovery Act Awards, the Department implemented a control process that
included an application and award selection process, onsite monitoring and regular performance
reviews. This control process differed from the Baseload Award in that the Recovery Act
Awards were restricted to national laboratories operated by established Management and
Operating contractors. For both award types, test work did not identify problems with
supporting documentation for costs claimed by the recipients and reimbursed by the
Department. In addition, projects were generally meeting established deadlines and milestones
according to available recipient and Department progress and monitoring reports.

Thus, the audit did not identify any material concerns with the management of the Concentrating
Solar Power Program. Therefore, the Department was encouraged to continue its monitoring of
the Concentrating Solar Power Program as projects move forward to ensure success in meeting
program objectives. (OAS-RA-L-13-01)


The Department's $700 Million Smart Grid Demonstration Program Funded
through the Recovery Act
The Department's Office of Electricity Delivery and Energy Reliability received about $4.5
billion under the Recovery Act to enhance the reliability and resilience of the Nation's power
grid, or nearly 33 times the amount appropriated in Fiscal Year 2009. Of the amount awarded,
the Department allocated nearly $700 million to the Smart Grid Demonstration Program (Smart
Grid) to fund 32 regional demonstrations and energy storage projects. Smart Grid also provided
supplemental Recovery Act funding to 10 existing Department projects for renewable and

                                                                                                    Page 54
distributed systems integration and high temperature superconductivity. The audit found that the
Department had not always managed Smart Grid effectively and efficiently. Review of 11
projects, awarded $279 million in Recovery Act funding and $10 million in non-Recovery Act
funding, identified weaknesses in reimbursement requests, cost-share contributions, and
coordination efforts with another Department program. These issues resulted in about $12.3
million in questioned costs. Although Smart Grid had established procedures over financial
reviews of projects, the problems identified occurred, in part, because it had not adequately
reviewed financial transactions and planned for or monitored recipient cost-share provisions. In
response to the finding, the Department concurred with the recommendations and indicated that
corrective actions have been or would be initiated to improve the management of Smart Grid and
to resolve questioned costs. (OAS-RA-13-08)


The Department of Energy's Management of the Award of a $150 Million
Recovery Act Grant to LG Chem Michigan Inc.

The Department’s Vehicle Technologies Program was established to develop and deploy
efficient and environmentally friendly highway transportation technologies to reduce the
Nation's dependence on foreign oil and provide greater energy security. The Vehicle
Technologies Program received $2.4 billion under the Recovery Act for these purposes. In
February 2010, LG Chem Michigan Inc. (LG Chem Michigan), formerly Compact Power, Inc.,
was awarded more than $150 million in Recovery Act funding to help construct a $304 million
battery cell manufacturing plant in Holland, Michigan. On October 24, 2012, a complaint was
received that LG Chem Michigan misused Recovery Act funds. The review confirmed the
allegations. Specifically, LG Chem Michigan inappropriately claimed and was reimbursed for
labor charges incurred by a variety of supervisory and staff employees for activities that did not
benefit the project. As a result, up to about $842,000 in reimbursements for labor charges were
questioned. Also, work performed under the grant to LG Chem Michigan had not been managed
effectively. Based on progress to date and despite the expenditures of $142 million in Recovery
Act funds, LG Chem Michigan had not yet achieved the objectives outlined in its Department-
approved project plan. For instance, even though the facility had produced a large number of test
cells, the plant had yet to manufacture battery cells that could be used in electric vehicles sold to
the public. The problems identified occurred, in large part, due to grant monitoring issues with
LG Chem Michigan and the Department. In response, the Department concurred with the
recommendations and indicated that corrective action had been taken and/or has been initiated to
address the issues identified. (OAS-RA-13-10)


The Department of Energy's Solid-State Lighting Program
The Department's Office of Energy Efficiency and Renewable Energy established the Solid-State
Lighting Program to advance the development and market introduction of energy-efficient white-
light sources for general illumination. The Recovery Act appropriated more than $41 million to
accelerate solid-state lighting research and development and jumpstart the manufacturing
research and development initiative. Through competitive solicitations, the Department awarded
financial assistance instruments to various recipients each year since the program's inception.

                                                                                                    Page 55
The audit determined that the Department had controls in place, in most instances, to effectively
and efficiently manage the Solid-State Lighting Program. However, certain actions were
identified that could improve the Department's management of the Solid-State Lighting Program.
Specifically, we noted that the Department could enhance program operations by ensuring
recipients have effective accounting controls and financial systems in place to adequately
segregate and accumulate costs, and tracking external audit findings to develop lessons learned
for reviewing financial assistance awards. Therefore, suggestions were made to management for
improving management of the Solid-State Lighting Program. (OAS-RA-L-13-03)


The Department of Energy's Industrial Carbon Capture and Storage
Program Funded by the American Recovery and Reinvestment Act
The Department received nearly $1.5 billion through the Recovery Act to invest in clean
industrial technologies and sequestration projects through the Industrial Carbon Capture and
Storage Program (Carbon Program). The National Energy Technology Laboratory awarded 46
cooperative agreements to a variety of demonstration and research and development projects.
The agreements required substantial involvement by Federal project managers and relied on
recipients to share in the investments needed to complete the projects. The audit found that the
Department had not always effectively managed the Carbon Program and the use of Recovery
Act funds. In particular, our review of the Carbon Program, including 15 recipients awarded a
total of approximately $1.1 billion, revealed that the Department had not adequately documented
the approval and rationale to use $575 million of the $1.1 billion reviewed to accelerate existing
projects rather than proceeding with new awards as required by Federal and Department
policies. In addition, the Department reimbursed recipients approximately $16.8 million without
obtaining or reviewing adequate supporting documentation, and awarded three recipients over
$90 million in Recovery Act funding even though the merit review process identified significant
financial and/or technical issues. Further, the Department had not ensured that recipient
subcontractor or vendor selections for goods and services represented the best value to the
Government. Therefore, we identified up to $18.3 million in questionable reimbursement claims
that were approved by the Department for just the sample of awards reviewed. The issues
identified occurred, in part, because program officials had not always provided effective
monitoring and oversight of recipient activities. In response to our finding, management
concurred with most of the recommendations and indicated that it had initiated and/or taken
corrective actions to improve the Department’s implementation of the Carbon Program.
(OAS-RA-13-15)


Energy Efficiency and Conservation Block Grant Program
As part of the Recovery Act, the Energy Efficiency and Conservation Block Grant (EECBG)
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors.



                                                                                                 Page 56
California Energy Commission − Energy Efficiency and Conservation Block
Grant Program Funds Provided by the Recovery Act
The California Energy Commission (Commission) received a $49.6 million grant award from the
Department's Recovery Act EECBG Program funding for the State of California that was to be
expended over a 3-year period. We contracted with an independent public accounting firm to
conduct an examination of EECBG Program activities of the Commission. The examination
found that the Commission failed to prevent or detect two duplicate drawdowns of
reimbursements from the U.S. Department of the Treasury totaling $678,000. Commission
officials were not aware of the problem until our independent certified public accounting firm
brought the improper drawdowns to their attention. In response to the finding, Department
management concurred with the recommendations, and proposed and initiated corrective actions
to ensure Commission establishment of policies and procedures for, and the review of, all
drawdowns, and to resolve questioned costs identified. (OAS-RA-13-01)


County of Los Angeles – Energy Efficiency and Conservation Block Grant
Program Funds Provided by the Recovery Act
The County of Los Angeles (Los Angeles County) received a $15.4 million formula grant award
and a $30 million competitive grant award, both awards were to be expended over a 3-year
period. We contracted with an independent public accounting firm to conduct an examination of
EECBG Program activities of Los Angeles County. The examination found that Los Angeles
County failed to record the grant funding source and corresponding percentage of Federal
participation for $800,000 in computer purchases in its fixed asset records; and, overstated total
labor hours for a contractor included in Los Angeles County's Recovery Act report for June
2011, due to a calculation error and a lack of review. In response to the findings, Department
management concurred with the recommendations and proposed and initiated corrective actions
to verify that Los Angeles County establishes policies and procedures to ensure fixed asset
records contain all Department-required data fields, and to ensure accurate compilation and
submission of Recovery Act reporting and retention of appropriate supporting documentation.
(OAS-RA-13-02)


The Department's Recovery Act Energy Efficiency and Conservation Block
Grant Program − Efficiency Maine Trust
The State of Maine established the Efficiency Maine Trust (Trust) to take over responsibility for
all non-transportation related energy efficiency programs and administer the State's EECBG
Program, totaling about $9.6 million. We contracted with an independent public accounting firm
to conduct an examination of the Trust's EECBG Program. The examination found that the Trust
lacked adequate records to support grant-related expenditures by sub-grantees. Specifically,
expenditures claimed by 9 of the 56 sub-grantees reviewed in a sample were not supported with
adequate documentation. As a result, about $560,000 of expenditures claimed were questioned.
The lack of adequate documentation occurred because the Trust has not enforced the provisions
in the award agreement that requires sub-grantees to retain and provide documentation

                                                                                                 Page 57
supporting expenditures. In response to the finding, the Department concurred with the
recommendations, and along with the Trust, proposed corrective actions to improve the
administration of Recovery Act EECBG funds and to resolve questioned costs. (OAS-RA-13-04)


The Department's Implementation of Financial Incentive Programs under the
EECBG Program
The Department's EECBG Program, funded for the first time by the Recovery Act, received $3.2
billion in Recovery Act funding for competitive and formula grants. Of the $3.2 billion,
approximately $284 million was designated by EECBG recipients for financial incentive
programs. The Department had taken a number of positive steps to implement and administer
EECBG financial incentive programs to ensure accountability for Recovery Act funding and
compliance with laws and regulations. For example, with the launch of the Recovery Act, the
Department introduced the Solution Center, an online portal for technical assistance resources
that included best practices, templates, online trainings and webcasts. However, our review
found two major challenges in ensuring the effectiveness of the EECBG financial incentive
programs. These challenges included: (1) Ensuring grant recipients were on track to meet
expenditure goals for their financial incentive programs prior to the end of their grant periods;
and, (2) Finalizing grant recipient guidance on their responsibilities for long-term monitoring and
reporting of financial incentive programs funding. We found that the Department understood
these challenges and had taken action to address them. Additionally, we noted that the
Department had identified and was taking action to address a problem with one recipient that had
not complied with Federal requirements to segregate Recovery Act funds from other funding
sources in its accounting system. (OAS-RA-L-13-02)


City of Los Angeles-Energy Efficiency and Conservation Block Grant
Program Funds Provided by the Recovery Act
In July 2009, the Department awarded the City of Los Angeles (Los Angeles) a 3-year formula
grant of $37 million. Los Angeles allocated EECBG funds to 10 of its departments, including
the Department of Water and Power, General Services Department (GSD), and the Los Angeles
Housing Department. Los Angeles assigned responsibility for managing its grant to the
Community Development Department. We contracted with an independent accounting firm to
conduct an examination of Los Angeles’ EECBG Program. The examination found that Los
Angeles had not ensured GSD contractors paid their employees prevailing wages in accordance
with the Davis-Bacon Act. Further, Los Angeles did not properly account for or document
EECBG equipment purchases in accordance with Federal regulations, and had not properly
calculated total labor hours used to compute jobs created and retained. These issues occurred, in
part, because Los Angeles did not perform an adequate review of certified payrolls to verify
appropriate wages were paid or ensure adequate supporting documentation for apprentices was
maintained. In response to the findings, the Department concurred with the recommendations
and initiated corrective action to improve the administration of the EECBG Program.
(OAS-RA-13-12)



                                                                                                  Page 58
North Carolina State Energy Office − Energy Efficiency and Conservation
Block Grant Program Funds Provided by the Recovery Act
The North Carolina State Energy Office (North Carolina) received a $20.9 million competitive
grant award that was to be expended over an initial 3-year period from September 21, 2009
through September 20, 2012; however, North Carolina requested and received an extension of its
grant to March 2013. We contracted with an independent certified public accounting firm to
conduct an examination of the Agency’s EECBG Program. The examination found that the
North Carolina’s quarterly reports on jobs created and retained were incomplete. Further, the
months included in the reports were inconsistent with the periods required to be reported under
the Recovery Act and guidance on job reporting provided by the EECBG project officer was not
consistent with Program policies and procedures according to EECBG Program officials. The
issues identified occurred, in part, because North Carolina did not have a formal process to
record and track timely submissions of jobs data received from sub-recipients and lacked
sufficient staffing resources to perform the necessary tracking and follow-up in a timely manner.
In response to the finding, the Department concurred with the recommendations and initiated
corrective actions to improve North Carolina’s administration of the EECBG Program.
(OAS-RA-13-09)


Texas State Energy Conservation Office − Energy Efficiency and
Conservation Block Grant Program Funds Provided by the Recovery Act
The Texas State Energy Conservation Office (Agency) received a $45.6 million grant award that
was to be expended over a 3-year period from September 14, 2009 to September 13, 2012. We
contracted with Lani Eko & Company, CPAs, PLLC, to conduct an examination of the Agency’s
EECBG Program. The examination found that the Agency complied in all material respects with
the requirements and guidelines relative to the EECBG Program for the period of September 14,
2009 through October 31, 2011. (OAS-RA-13-13)

Connecticut Department of Energy and Environmental Protection − Energy
Efficiency and Conservation Block Grant Program Funds Provided by the
Recovery Act of 2009
The OIG contracted with an independent certified public accounting firm to conduct an
examination of the Connecticut Department of Energy and Environmental Protection's
(Connecticut) EECBG Program. The examination found that Connecticut did not receive
certified payrolls on a weekly basis, as required, to ensure timely review of sub-grantee
contractors' compliance with Davis-Bacon Act wage requirements. Additionally, Connecticut
reported inaccurate and unsupported information on jobs created and retained for one quarter
reviewed. Further, Connecticut failed to ensure sub-grantees were compliant with Federal
requirements for recording and controlling fixed assets. The issues identified occurred, in part,
because Connecticut delegated its responsibility for Davis-Bacon Act compliance for the
collection, review, and initial retention of certified payrolls to sub-grantees, and Federal
requirements related to fixed assets were not cited in sub-grantee contracts. In response to the


                                                                                                    Page 59
findings, the Department concurred with the recommendation, and proposed and initiated
corrective actions to improve administration of the EECBG Program. (OAS-RA-13-14)


The Department of Energy's American Recovery and Reinvestment Act
Energy Efficiency and Conservation Block Grant Program - State of
Colorado and County of Boulder, Colorado
The Department awarded a $9.6 million formula grant to the State of Colorado (Colorado) in
September 2009, and a $25 million competitive grant to the County of Boulder, Colorado
(Boulder), in May 2010. These 3-year grants provided funding for activities such as outreach
and advisory services, building retrofits, rebates and loans. We found Colorado and Boulder had
not always managed these grants efficiently and effectively. For instance, Colorado paid local
agencies about $2 million to develop outreach strategies and action plans without ensuring costs
were reasonable and activities were performed in a timely manner. Further, about $8,000 of the
$279,618 in rebates paid by Boulder that we reviewed were either inaccurate or unsupported. As
a result, about $2 million of costs incurred and $8,000 in rebate payments were questioned.
According to Colorado officials, these issues occurred because they did not fully understand
grant requirements. Additionally, we found that Colorado officials had not incorporated
documentation requirements in local agency agreements, and had not held sub-recipients
accountable for timely deliverables. In response to the finding, the Department concurred with
the recommendations and initiated corrective actions to improve grant management and to
resolve questioned costs. (OAS-RA-13-16)




                                                                                               Page 60
Weatherization Assistance Program
As part of the American Recovery and Reinvestment Act of 2009 (Recovery Act), the
Weatherization Assistance Program (Weatherization Program) received $5 billion to reduce
energy consumption for low-income households through energy efficient upgrades.


Community Action Partnership of Orange County – Weatherization
Assistance Program Funds Provided by the Recovery Act
The State of California (California) received $186 million in Recovery Act Weatherization
Program funding, of which $7.3 million was allocated to the Community Action Partnership of
Orange County (Orange County) to weatherize 2,342 homes. The California Department of
Community Services and Development was responsible for administering Weatherization
Program grants, including funds provided to the Orange County. We contracted with an
independent public accounting firm to conduct an examination of Orange County's compliance
with Federal and State laws, regulations and program guidelines applicable to the Weatherization
Program for the period of July 1, 2009 through June 30, 2011. The examination found that
Orange County failed to evaluate the quality of work performed on 7 of 60 homes (12 percent)
reviewed. Additionally, 12 of 35 homes (34 percent) had final inspections that identified the
need for necessary re-work. Finally, Orange County could not provide evidence that a cost or
price analysis was performed for procured weatherization materials and contractor services. As a
result, $24,900 in costs reimbursed for the weatherization of the 7 homes reviewed and $190,000
in procurements were questioned. In total, $214,900 in costs charged to the Weatherization
Program were questioned. In response to the finding, the Department and California concurred
with the recommendations and proposed corrective actions to improve the administration of the
Weatherization Program and to resolve questioned costs. (OAS-RA-13-03)


Prince George's County Department of Housing and Community
Development – Weatherization Program Funds Provided by the Recovery Act
The State of Maryland (Maryland) Department of Housing and Community Development
received $61 million in Recovery Act Weatherization Program funding, of which $2.1 million
was allocated to the Prince George's County Department of Housing and Community
Development (Prince George’s County). Maryland was responsible for administering
Weatherization Program grants, including funds provided to Prince George’s County. We
contracted with an independent certified public accounting firm to express an opinion on the
Prince George’s County's compliance with Federal and State laws, regulations and program
guidelines applicable to the Weatherization Program. The independent firm disclaimed an
opinion on whether Prince George’s County had complied with the requirements and guidelines
relative to the Weatherization Program. In May 2011, the former County Director of the
Department of Housing and Community Development in charge of the Weatherization Program
pled guilty to conspiracy to commit extortion in taking bribes from developers on housing
projects. Although the charges were unrelated to weatherization, the County Director was
directly responsible for management of the Weatherization Program. Comments provided by the
Department were responsive to the concerns raised in the report. (OAS-RA-13-05)
                                                                                               Page 61
Montgomery County Department of Housing and Community Affairs −
Weatherization Assistance Program Funds Provided by the American
Recovery and Reinvestment Act of 2009
The State of Maryland (Maryland) received $61 million in Weatherization Program Recovery
Act grant funding, of which $5.5 million was allocated to Montgomery County Department of
Housing and Community Affairs (Montgomery County). Maryland's Department of Housing
and Community Development was responsible for administering Weatherization Program grants,
including funds provided to Montgomery County. We contracted with an independent certified
public accounting firm to express an opinion on Montgomery County's compliance with Federal
and State laws, regulations and program guidelines applicable to the Weatherization Program.
The examination found that Montgomery County had not properly accounted for 6 of 45
transactions reviewed, or 13 percent, charging the Weatherization Program $13,000 for items,
including heating system repairs/replacements that, according to Maryland policy, should have
been paid with funds from other energy-related programs; and, had not maintained records
adequately accounting for equipment. The issues identified were due, in part, to inadequate
supervisory review of the reimbursement process to ensure that requests for reimbursements
under the Recovery Act are matched to underlying accounting records, such as invoices and
receiving reports. In response, the Department concurred with the recommendation and
indicated that corrective action was taken to improve administration of Weatherization Program
funds. (OAS-RA-13-06)


The Department of Energy's Weatherization Assistance Program Funded
under the American Recovery and Reinvestment Act for the State of
Maryland
The Department subsequently awarded a 3-year Recovery Act Weatherization Assistance
Program (Weatherization Program) grant of $61.4 million to the State of Maryland (Maryland) to
weatherize 6,850 homes. This grant provided over eight times the approximately $7.4 million in
Weatherization funds made available to Maryland in FY 2009. The audit found that Maryland,
while achieving its production goals, had not always managed its Weatherization Program
efficiently and effectively. For instance, local agencies charged 50 percent of total
weatherization costs, up to $1,500 per house, for "program support" costs (costs necessary to
weatherize a home that are not otherwise captured in the direct labor and materials) that were not
substantiated. Also, recent Maryland monitoring reports disclosed that other local agencies had
not reconciled program support expenditures to reimbursements. As a result, about $9.56
million in reimbursement claims for direct weatherization expenditures and program support
costs were questioned. The deficiencies identified were caused by a lack of adherence to Federal
regulations by local agencies. Additionally, the deficiencies were not promptly detected because
of a lack of adequate local agency monitoring by Maryland. In response to the finding, the
Department agreed with the recommendations and indicated that corrective actions were initiated
to resolve issues identified. (OAS-RA-13-07)




                                                                                                 Page 62
Fresno County Economic Opportunities Commission - Weatherization
Assistance Program Funds Provided by the American Recovery and
Reinvestment Act of 2009
The State of California received $186 million in Recovery Act Weatherization Program funding,
of which $11.2 million was allocated to the Fresno County Economic Opportunities Commission
(Fresno County) to weatherize 5,374 homes. The State of California Department of Community
Services and Development (California) was responsible for administering Weatherization
Program grants, including funds provided to the Agency. We contracted with an independent
certified public accounting firm to conduct an examination of Fresno County’s Weatherization
Program. The examination found that the Fresno County selected a contractor to administer its
Recovery Act Weatherization Program without considering the price of services, and executed
multiple contracts with its weatherization contractor that did not clearly document agreed-upon
terms and conditions. Further, Fresno County's primary weatherization contractor improperly
approved and/or documented the eligibility of applicants, and incorrectly reported its labor hours
to Fresno County for purposes of reporting total jobs created and retained under the Recovery
Act. The issues identified occurred, in part, because California officials were originally unaware
that Fresno County had not considered price in selecting a contractor. Also, Fresno County's
policies and procedures did not require a review of the eligibility process performed by its
contractor prior to providing weatherization services. In response to the findings, the
Department agreed with the recommendations and proposed corrective actions to improve the
administration of the Weatherization Program. (OAS-RA-13-11)


Community Action Partnership of San Bernardino County − Weatherization
Assistance Program Funds Provided by the American Recovery and
Reinvestment Act of 2009
The State of California received $186 million in Recovery Act Weatherization Program funding,
of which $7.7 million was allocated to the Community Action Partnership of San Bernardino
County (San Bernardino) to weatherize 1,931 homes. The State of California Department of
Community Services and Development (California) was responsible for administering
Weatherization Program grants, including funds provided to San Bernardino. We contracted
with an independent public accounting firm to conduct an examination of San Bernardino's
guidelines applicable to the Weatherization Program. The examination found, for instance, that
San Bernardino requested inaccurate reimbursements from California for weatherization work.
Additionally, San Bernardino used 13 of the 15 vehicles it purchased with Recovery Act
Weatherization Program funds in support of other Federally funded or non-Federally funded
weatherization activities instead of Recovery Act-related weatherization activities, as required.
As a result, $393,300 in expenditures was questioned. The issues identified occurred, in part,
because San Bernardino lacked a process to reconcile actual labor hours incurred to hours billed
to ensure accurate reimbursements. Further, San Bernardino did not maintain documented
justification for two sole source procurements, as required. In response to the findings, the
Department agreed with the recommendations and proposed corrective actions to improve the
administration of the Weatherization Program and to resolve questioned costs. (OAS-RA-13-17)



                                                                                                 Page 63
OIG Hotline Contact
Contact the OIG Hotline if you suspect fraud, waste or abuse involving Department programs or
by a Department employee, contractor or grant recipient.

Contact Information:

   •   Toll Free Telephone Number:                        1-800-541-1625

   •   Washington DC Metro Telephone Number:              202-586-4073

   •   Email Address:                                     ighotline@hq.doe.gov

   •   Physical Address:                                  U.S. Department of Energy
                                                          1000 Independence Ave, SW
                                                          Washington, DC 20585



Feedback
The contents of the March 2013 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making the
report more responsive, please submit the following information and click the “submit email”
button below:

   •    Name

   •    Telephone Number

   •    Comments/Suggestions/Feedback




                                                                                                Page 64
